<html>
<title> - ADVANCED ENERGY TECHNOLOGY DEVELOPMENT IN NEW MEXICO</title>
<body><pre>[Senate Hearing 107-859]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-859

          ADVANCED ENERGY TECHNOLOGY DEVELOPMENT IN NEW MEXICO

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

          ADVANCED ENERGY TECHNOLOGY DEVELOPMENT IN NEW MEXICO

                               __________

                            DECEMBER 3, 2002

                            ALBUQUERQUE, NM


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                -------
85-320              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                     John Kotek, Legislative Fellow
             Howard Useem, Senior Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Becker, Charles A., Ph.D., Manager, LEDs for Lighting, GE Global 
  Research, Gelcore, LLC.........................................    16
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Godshall, Dr. Ned, CEO, Mesofuel, Inc., Albuquerque, NM..........    34
Hampden-Smith, Dr. Mark, Director and Vice President, Superior 
  Micropowders...................................................    31
Moorer, Richard F., Deputy Assistant Secretary for Technology 
  Development, Office of Energy Efficiency and Renewable Energy, 
  Department of Energy...........................................     2
National Electrical Manufacturers Association Lighting Division 
  Solid State Lighting Section...................................    47
Romig, Alton D., Jr., Vice President, Science and Technology and 
  Strategic Partnerships, Sandia National Laboratories...........    11
Stroh, Dr. Kenneth R., Materials Science and Technology Division, 
  Los Alamos National Laboratory.................................    26

 
          ADVANCED ENERGY TECHNOLOGY DEVELOPMENT IN NEW MEXICO

                              ----------                              


                       TUESDAY, DECEMBER 3, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Albuquerque, NM
    The committee met, pursuant to notice, at 10:00 a.m. at 
Albuquerque Technical Vocational Institute Work Force Training 
Center, 5600 Eagle Rock Road, NE, Albuquerque, New Mexico, Hon. 
Jeff Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you all for coming this morning. This 
is a field hearing of the Senate Energy and Natural Resources 
Committee. We're going to highlight the roles that some of our 
companies here in New Mexico, and also our national 
laboratories are playing in shaping the Nation's energy future.
    Obviously, this hearing is not able to cover the whole 
spectrum of areas that people are working in, but we are going 
to explore recent technological advances in two areas that are 
key to our energy future.
    The first of these is the Next Generation Lighting 
Initiative. The Energy Information Administration calls 
lighting the most important individual energy use in the 
commercial sector. The lighting accounts for something over 20 
percent of commercial primary energy consumption, which makes 
lighting a technological area, and a good new idea can save a 
great deal of energy. Worldwide lighting products are about a 
$40 billion a year industry, so a good new idea also could do a 
great deal for our economy. Using LEDs, light emitting diodes, 
to produce white light may provide the technological leap that 
we are looking for.
    Advanced LED technology involves the use of solid state 
diodes and conductive polymers to produce white light twice as 
efficient as fluorescent lights and ten times more efficient 
than traditional incandescent lights. This LED technology has 
the potential to displace our traditional lighting industries, 
which are based on the technologies that Thomas Edison invented 
more than 100 years ago, so we look forward to hearing from 
witnesses about recent advances in this area.
    The second technology we're going to hear about today is 
fuel cell technology. Fuel cells have been around for years. 
They were used to provide the power for the Apollo missions in 
the 1960's. More recently, attention has focused on the promise 
that fuel cells offer as an alternative to the internal 
combustion engine; however, before fuel cells can be widely 
used in vehicles and other applications, manufacturing costs 
need to be brought to competitive levels; questions of 
producing hydrogen need to be adequately answered; choice of 
fuels to power fuel cells and how that fuel can be delivered to 
the consumer; how it can be stored in a way that makes sense 
economically.
    We have an excellent group of witnesses today. First panel, 
we start with a representative from the Department of Energy, 
Mr. Richard Moorer, who is the Deputy Assistant Secretary for 
Technology Development in the Office of Energy Efficiency and 
Renewable Energy, from the Department of Energy. After his 
testimony, Dr. Al Romig, who is the Vice President of Sandia 
National Labs Science and Technology Partnerships. He is in 
charge of the science and technology partnerships at Sandia 
National Lab. And Dr. Charles Becker, who is the manager of 
LEDs for Lighting Program for GE Global Research. And we will 
hear from all of them.
    And in the second panel, Dr. Ken Stroh, who is the Manager 
of Transportation and Fuel Cell Programs at Los Alamos; Dr. 
Mark Hampden-Smith, who is representing Superior MicroPowders 
at Motorola's--their partnership with Motorola, and Dr. Ned 
Godshall, who is the CEO of MesoFuel, Inc., here in 
Albuquerque.
    So we have an excellent group of witnesses, so why don't we 
just start in, and I will have--this is our first panel up 
here. I'll have a few questions after we hear from the three 
panelists on the first panel.
    Mr. Moorer, why don't you start and give us your views on 
these issues and what the Department of Energy is doing about 
it.

STATEMENT OF RICHARD F. MOORER, DEPUTY ASSISTANT SECRETARY FOR 
    TECHNOLOGY DEVELOPMENT, OFFICE OF ENERGY EFFICIENCY AND 
             RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Mr. Moorer. Thank you, Mr. Chairman, for this opportunity 
to testify here today. This is a most appropriate venue to 
discuss fuel cells and advanced lighting technologies because 
the Department of Energy's two national laboratories in New 
Mexico, Los Alamos and Sandia, each play an important role in 
developing these technologies.
    I'll first discuss fuel cell technology, which is 
fundamental to FreedomCAR, our flagship research and 
development initiative, to reduce the nation's dependence on 
foreign oil and dramatically change how we power our cars and 
trucks, and then turn to the subject of solid state lighting.
    I have provided some slides for the record; there are some 
copies on the back table, and I will go through those as I make 
my remarks.
    On slide 2, I speak to the most striking feature of our 
transportation system: its nearly complete dependence on 
petroleum as an energy source. Petroleum is used to satisfy 97 
percent of America's transportation energy needs, and roughly 
55 percent of our petroleum is imported from abroad.
    There is an expanding gap between declining domestic oil 
production and our increasing demand. As you can see, opening 
the coastal plain of the Arctic National Wildlife Refuge to 
exploration would clearly help, but that alone would not close 
the gap.
    Research and development to improve auto and truck 
efficiency would also help, but again, it would not close the 
gap. Indeed, both taken together would not close the gap.
    In response to this challenge, we have shifted our R&D 
technology portfolio to higher risk, higher reward strategies 
leading to the development and use of fuel cells and 
domestically derived hydrogen that could one day eliminate our 
need for foreign petroleum.
    Slide 3: On January 9, 2002, Secretary Abraham, joined by 
top leadership----
    The Chairman. Does everyone have a copy of these slides? 
Are there extra copies that anyone has around here, that we 
could pass out?
    Mr. Moorer. I believe they're on the back table.
    The Chairman. Okay. All right. Go ahead. You were talking 
about slide 3.
    Mr. Moorer. Slide 3. I have tried to make it easier for you 
so that if you don't have slides, you'll at least get the 
message.
    Slide 3 speaks to the signing by Secretary Abraham and 
joint top leadership from General Motors, DaimlerChrysler and 
Ford, announcing FreedomCAR at the North American International 
Auto Show in Detroit.
    Slide 4 speaks to the FreedomCAR partnership. The ``CAR'' 
in FreedomCAR stands for ``cooperative automotive research,'' 
and the freedom concept represents our fundamental long-term 
goals for this program; freedom from petroleum dependence, 
freedom from pollutant emissions, freedom for Americans to 
choose the kind of vehicle they want to drive, and to drive 
where they want, when they want; and freedom to obtain fuel 
affordably and conveniently. This is a dramatic far-reaching 
vision, one that requires new technology.
    Slide 5 speaks to our strategic approach in this 
partnership. The first element of our strategic approach is to 
develop technologies to enable mass production of affordable 
hydrogen-powered fuel cell vehicles and assure the hydrogen 
infrastructure to support them, but neither industry or 
government, working alone, can overcome the significant 
technical barriers to a hydrogen fuel cell future in any 
reasonable time frame; therefore, we must work in partnership.
    The automotive partnership that was in place in the past, 
the Partnership for a New Generation of Vehicles, or PNGVs, had 
some successes, and we are certainly not abandoning those 
successes or the collaborations it fostered. In fact, similar 
research elements of PNGV are embodied in the second element of 
our approach; to continue support for hybrid technologies and 
advanced materials that can dramatically reduce oil consumption 
and environmental impacts in the nearer-term before fuel cells 
can become competitive.
    One of the problems of PNGV was its narrow focus on a 
production prototype of family sedans; therefore, the third 
element of our strategic approach is to develop technologies 
applicable across a wide range of passenger vehicles.
    Slide 6 speaks to the technological risks that we face. If 
hydrogen fuel cells are to succeed in the marketplace, they 
must equal or better the performance of today's vehicles, 
including range, durability, start-up time, acceleration and 
safety. Moreover, these technologies must be integrated in 
vehicles that can be manufactured in quantities of millions per 
year at a cost competitive with current technologies.
    Since fuel cell vehicles run on hydrogen, which is not yet 
available at the corner gas station, elements of our technology 
portfolio are focused on making hydrogen production, 
transportation, storage, and refueling safe and affordable. We 
must also work towards the development of logical regulations, 
codes and standards governing the transportation and use of 
hydrogen.
    The next slide announces our national hydrogen energy 
roadmap, and to this end, we have been working on this roadmap. 
The secretary announced it on November 12, 2002, and it will 
guide us in a collaborative effort with industry, academia and 
our national laboratories towards the barriers that this 
technology faces.
    Los Alamos National Lab and Sandia National Lab, in 
particular, have made significant contributions to reducing the 
cost of fuel cells and to developing hydrogen storage 
materials, respectively.
    Slide 8 speaks to the work that's been happening at Los 
Alamos. They have been a pioneer in the development of PEM fuel 
cell technology. Los Alamos researchers have steadily decreased 
the platinum requirement of fuel cells, which has led to a 
reduction in projected cost of mass-produced fuel cell systems 
by an order of magnitude from around $3,000 per kilowatt, 10 
years ago, to around $300 per kilowatt today. Another order of 
magnitude reduction to $30 a kilowatt is necessary to be 
competitive with the cost of current internal combustion 
engines.
    Slide 9 highlights the work at Sandia National Laboratory, 
where they have made key contributions to the development of 
hydrogen storage materials. Hydrogen storage lies in the 
critical path to our success for our hydrogen economy. Current 
technology relies on high-pressure tanks that take up a lot of 
space in fuel cell vehicles, reducing the trunk space and the 
vehicle range. We are seeking hydrogen storage systems that 
enable high storage capacity at low pressure.
    This slide illustrates the progress made in increasing 
hydrogen storage capacity of materials that have been developed 
by Sandia National Laboratory. DOE's target is to triple the 
capacity of most existing metal hydride storage systems. We are 
also working to develop PEM fuel cells as a stationary 
distributed power source.
    Mr. Chairman, my boss tells me that you're somewhat of an 
expert in the area of distributed energy, and so I'm going to 
forego that and skip to slide 12.
    I would like to make the point, though, that there is 
important synergy between the transportation and stationary 
fuel cell markets and R&D activities. For fuel cells to succeed 
in establishing near-term market success, our R&D must address 
these critical barriers associated with stationary and 
affordable power applications.
    Now I'd like to turn to the subject of the other focus of 
this hearing; advanced lighting.
    We consumed an estimated 96.3 quadrillion BTUs of primary 
energy in the United States in 2001, more than a third of 
which, or 35 quads, were used to generate electricity.
    Slide 14 speaks to the energy consumption for lighting. 
Lighting consumes about 22 percent of the total electricity 
used in the United States, and the lion's share of energy 
consumption for lighting is in the commercial sector.
    Today, much of our lighting is relatively inefficient. My 
daughter once had an Easy-Bake Oven that she used to bake 
cakes, and it was a terrific demonstration that incandescent 
lights can produce an awful lot of heat as well as light; a 
testament to their inherent inefficiency. Incandescent light 
sources only produce about 15 lumens per watt.
    Compact and tubular fluorescent light bulbs with electronic 
ballasts are more efficient and produce far less heat than 
incandescent light bulbs. These light sources produce about 90 
lumens per watt. We believe it is possible to produce higher 
quality lighting using advanced, solid-state technology that 
could deliver as much as 150 lumens per watt, a 70 percent 
improvement over the best fluorescent lighting available today.
    Slide 15 speaks to the various solid-state innovations that 
we have seen. The transition to solid-state technology in 
lighting would mirror similar advances made in other fields. 
Transistors have replaced vacuum tubes in radios and consumer 
electronics, solid-state screens have replaced cathode ray 
tubes in computers and television sets, and solid-state 
lighting is starting to be employed in certain niche 
applications.
    Slide 16 speaks to the various solid-state lighting 
sources. Within the field of solid-state lighting, or 
optoelectronics, there are three general technical subgroups, 
each of which can offer search advantages for a range of 
applications.
    Light-emitting diodes, or inorganic LEDs, are used today in 
signs and single lighting applications such as traffic lights 
and pedestrian crossing signals.
    Organic light-emitting diodes, or OLEDs, are a flexible 
organic-based cousin of LEDs. Not yet achieving the same 
brightness as LEDs, current OLED development is focused on 
large displays, personal display devices and instrumentation.
    Other novel solid-state lighting includes light-producing 
structures, such as vertical cavity surface emitting lasers, or 
``vixels.'' They do not fit conveniently in any of the prior 
categories. We can find successful commercial applications of 
this technology in telecommunications, and in performing 
critical medical and scientific research.
    Slide 17 shows some examples of solid-state lighting 
applications today. You may be familiar with the NASDAQ sign in 
Times Square powered by more than 18 million red, blue and 
green LEDs. Just like your television set, when perceived from 
a distance, this mix of color produces white light and various 
combinations of each, which can produce any color desired.
    Another display technology is pictured on this slide. This 
is an example of a prototype OLED display that may eventually 
replace the computer screens and TV monitors we have today. 
Based on the same principle of the three colors, but at a far 
greater resolution, we find the technology starting to be used 
today in some mobile phones and car radio displays.
    If research in this area is successful, these OLED displays 
could be formed into ceiling tiles installed in our offices, 
being both the fixture and the light source, emitting white 
light or any other color that we want. This lighting source can 
be infinitely dimmable with no penalty in efficiency or life. 
This makes it a superb match for a building energy management 
system.
    My last slide, slide 18, speaks to the solid-state 
roadmapping that we've been doing, and it points out that there 
are both cost and technical barriers to the use of these 
technologies in the white light market.
    To help address these barriers, our office is conducting 
lighting research and development through our building 
technologies program. Last year, we spent about $6 million in 
pursuit of this mission. In an effort to identify the 
technology path we should follow to enhance and accelerate the 
development of white light from solid-state sources, we 
convened eight workshops bringing together key stakeholders 
from industry, academia and the national labs.
    We believe solid-state lighting potentially offers the most 
efficient means of converting electrons into photons. Thus far, 
industry has focused on signals and displays. Continued 
research into the uses of solid-state lighting for general 
illumination could help us maintain technological leadership 
and provide us with an important tool in improving the nation's 
energy efficiency identified in the President's national energy 
policy as a national priority. We are exploring ways to 
accelerate this work for a stronger, better-coordinated, 
public-private partnership.
    Thank you, Mr. Chairman, for the opportunity to offer these 
views today, and I would welcome any questions the committee 
might have today or in the future.
    [The prepared statement of Mr. Moorer follows:]

Prepared Statement of Richard F. Moorer, Deputy Assistant Secretary for 
   Technology Development, Office of Energy Efficiency and Renewable 
                      Energy, Department of Energy

    Mr. Chairman, I appreciate this opportunity to discuss advanced 
fuel cell and lighting technology.
    This is a most appropriate venue to discuss these subjects, because 
the Department of Energy's two National Laboratories in New Mexico--Los 
Alamos and Sandia--each play an important role in the development of 
these technologies.
    I will first discuss fuel cell technology, specifically the polymer 
electrolyte membrane or PEM fuel cell that is the key to FreedomCAR--
our flagship research and development initiative to reduce the nation's 
dependence on foreign oil and dramatically change how we power our cars 
and light trucks. PEM fuel cell technology is also a promising 
stationary power source for distributed generation, which I will also 
touch upon.
    By way of background, the most striking feature of our 
transportation system is its nearly complete dependence on petroleum as 
an energy source. Petroleum is used to satisfy 97% of America's 
transportation energy needs, consuming about two-thirds of all the 
petroleum we use. Since roughly 55% of our petroleum is imported from 
abroad, the implications of this dependency on our energy security are 
well understood by the members of this Committee, and I need not dwell 
on them here.

                         THE ``GAP'' IS GROWING

    This slide illustrates the expanding gap between declining domestic 
oil production and our increasing demand. As you can see, opening the 
Coastal Plain of the Arctic National Wildlife Refuge to exploration 
would clearly help, but that alone would not close the gap. The R&D 
approach we were previously embarked on would have also helped . . . 
but would not have closed the gap either. Indeed, both taken together 
would not have closed the gap.
    Mindful of these realities, Secretary Abraham challenged the 
Department of Energy to take a bolder approach to our work. He directed 
us to focus our efforts on programs that ``revolutionize how we 
approach conservation and energy efficiency.'' He challenged us to 
``leapfrog the status quo'' and to pursue ``dramatic environmental 
benefits.''
    In response to that challenge, we are pursuing revolutionary, 
transforming technologies designed to decrease our dependence on 
foreign petroleum. We have shifted our R&D technology portfolio to 
``higher risk, higher reward'' strategies leading to the use of fuel 
cells and domestically derived hydrogen for transportation.

                      FREEDOMCAR IS A PARTNERSHIP

    On January 9, 2002, Secretary Abraham, joined by top leadership 
from General Motors, Daimler Chrysler, and Ford, announced FreedomCAR 
at the North American International Auto Show in Detroit.
                               freedomcar
    The CAR in FreedomCAR stands for Cooperative Automotive Research. 
And the ``Freedom'' concept represents our fundamental, long-term goals 
for this program:

  <bullet> Freedom from petroleum dependence;
  <bullet> Freedom from pollutant emissions;
  <bullet> Freedom for Americans to choose the kind of vehicle they 
        want to drive, and to drive where they want, when they want; 
        and
  <bullet> Freedom to obtain fuel affordably and conveniently.

    This is a dramatic, far reaching vision . . . one that requires new 
technology. We cannot break the bonds of foreign oil dependency by 
continuing with the status quo. Given the low gasoline and diesel 
prices we enjoy today, we can reasonably expect consumers to continue 
demanding larger, heavier, more powerful vehicles, and vehicle 
manufacturers to continue using internal combustion engines to satisfy 
that demand. We clearly see this in the marketplace today. The majority 
of the new passenger vehicles sold in 2001 were, for the very first 
time in automotive history, light trucks in the form of sport utility 
vehicles, vans and pickups.

                           STRATEGIC APPROACH

    If we expect to offer performance, convenience and functionality in 
a range of vehicles that can meet the needs of a diverse population 
without using petroleum, then we believe the most promising long-term 
approach is to employ hydrogen fuel cells combined with electric drive.
    Therefore, the first element of our strategic approach is to 
develop technologies to enable mass production of affordable hydrogen-
powered fuel cell vehicles and assure the hydrogen infrastructure to 
support them.
    Fuel cells, of course, can be thought of as batteries that are 
continuously replenished by a constant supply of hydrogen. And 
hydrogen, the most plentiful element in the universe and the third most 
plentiful on earth, can be derived from a variety of sources including 
petroleum, natural gas, coal, biomass, and even water.
    But there are significant technical and infrastructure barriers 
that must be overcome. Neither industry nor government, working alone, 
is likely to overcome these barriers in any reasonable timeframe. 
Therefore, we must work in partnership.
    The automotive partnership that was in place in the past, the 
Partnership for a New Generation of Vehicles (PNGV), had some 
successes, and we are certainly not abandoning those successes or the 
collaborations it fostered. Indeed, many of the research elements of 
PNGV are embodied in the second element of our approach: Namely, to 
continue support for hybrid technologies and advanced materials that 
can dramatically reduce oil consumption and environmental impacts in 
the nearer term before fuel cells can be competitive.
    One of the recognized problems of PNGV was its narrow focus on a 
production prototype of a family sedan. Therefore, the third element of 
our strategic approach is to develop technologies applicable across a 
wide range of passenger vehicles.

                            TECHNOLOGY RISKS

    Yet, the technology challenges we face are daunting. To succeed, we 
must dramatically improve vehicle efficiency without sacrificing the 
performance of today's vehicles--including range, durability, start up 
time, acceleration, and safety.
    Moreover, these technologies must be integrated in vehicles that 
can be manufactured in quantities of millions per year at a cost 
competitive with current technologies.
    Since fuel cell vehicles run on hydrogen--which is not yet 
available at the corner gas station--elements of our technology 
portfolio are focused on making hydrogen production, transportation, 
storage, and refueling safe and affordable. We must also work toward 
the development of logical regulations, codes and standards governing 
the transportation and use of hydrogen.
    In November of 2001, my office convened senior executives 
representing energy industries, environmental organizations and 
government officials to discuss the role for hydrogen systems in 
America's energy future. We sought a common vision for the hydrogen 
economy, the time frame for the vision and the key milestones needed to 
get there. There was general agreement that hydrogen can be America's 
clean energy choice, but that the transition to a hydrogen economy 
could well take 30 years or more to fully unfold.

                           TECHNOLOGY ROADMAP

    We have been working on a specific technology roadmap addressing 
production, storage, conversion and infrastructure that leads us to 
that vision, and we are continuing that work as a part of the 
FreedomCAR program plan.
    At the Global Forum on Personal Transportation on November 12, 2002 
the Secretary announced the National Hydrogen Energy Roadmap. The 
Roadmap was developed over the last year in response to the National 
Energy Policy. It identifies challenges and paths forward to moving to 
a hydrogen economy as well as the role the government and industry will 
play.
    The National Labs have, and will continue to play, an important 
role in tackling these challenges. Los Alamos and Sandia National Labs, 
in particular, have made significant contributions to reducing the cost 
of fuel cells and to developing hydrogen storage materials, 
respectively.
los alamos national laboratory has contributed to reducing the cost of 

                               FUEL CELLS

    Los Alamos National Laboratory has been a pioneer in the 
development of PEM fuel cell technology. Over the past decade, LANL has 
developed fuel cell stack component technology--electrodes, membrane-
electrode assemblies, and fabrication processes--that have been 
transferred and licensed to fuel cell companies. Researchers at LANL 
have steadily decreased the platinum required in fuel cells--an order 
of magnitude reduction--which has led to a reduction in the projected 
cost of mass-produced fuel cell systems by an order of magnitude--from 
$3,000/kW ten years ago, to about $300/kW today. This cost is based on 
high-volume production of 500,000 fuel cell systems per year. LANL 
continues to work with our industry partners to improve the performance 
and reduce the cost of PEM fuel cells. Another order of magnitude 
reduction is necessary to be competitive with the cost of current 
internal combustion engines.
    On the hydrogen side, Sandia National Laboratory has made key 
contributions to the development of hydrogen storage materials. Current 
technology relies on high pressure tanks that take up a lot of space in 
the fuel cell vehicle, reducing trunk space and vehicle range. We are 
seeking hydrogen storage systems that enable high storage capacity at 
low pressure.

   SANDIA NATIONAL LABORATORY HAS INCREASED REVERSIBLE H<INF>2</INF> 
                            STORAGE CAPACITY

    This slide illustrates the progress made in increasing the hydrogen 
storage capacity of materials developed at Sandia. We are making 
progress toward the DOE target of 6 weight %, triple the capacity of 
most existing metal hydride storage systems. But we still have a 
challenge ahead of us because the data are for materials only--the 
packaging adds weight that must be factored into the calculation. These 
and similar materials represent an exciting opportunity for the 
development of safe and efficient on-board hydrogen storage 
technologies that are an important enabling technology for 
transportation applications.

               DISTRIBUTED ENERGY RESOURCES PROGRAM GOAL

    We are also working to develop PEM fuel cells as a stationary, 
distributed power source. One of the promising opportunities for 
customers to manage their peak load requirements is through the use of 
combined heat and power systems in buildings. These systems couple 
natural gas fired distributed generation, such as microturbines, 
reciprocating engines, or fuel cells, with thermally activated cooling 
and humidity control equipment to meet a building's energy and indoor 
comfort needs. Our program goal is to build into the PEM fuel cells 
those characteristics that make it a prime component as a power 
generator and make maximum use of recoverable energy for cooling/
heating and indoor air quality for various buildings types.

                      BUILDING ENERGY CONSUMPTION

    Exploring the use of PEM fuel cells as a means to improve overall 
efficiency in buildings is important since, based on statistics from 
the Energy Information Administration (EIA), buildings account for:

  <bullet> -38% of natural gas consumption;
  <bullet> -67% of generated electricity consumption; and
  <bullet> -36% of national total energy consumption.

                     STATIONARY FUEL CELL BARRIERS

    Secondly, there is significant synergy between the transportation 
and stationary fuel cell markets and R&D activities. For fuel cells to 
succeed in establishing near-term market success, our R&D must address 
the critical barriers associated with stationary and portable power 
applications. These barriers include:

  <bullet> Durability. While initial performance of demonstration fuel 
        cell systems has been very promising, operation over an 
        extended period of time typically degrades performance of 
        certain components such as the fuel cell membrane. Fuel cells 
        for stationary applications must demonstrate 40,000 hours of 
        useful life. This means that long-term testing must be carried 
        out before the technology can be introduced into the 
        marketplace. Introduction into a range of applications is 
        necessary to achieve enough volume to drive down the cost of 
        critical components.
  <bullet> Higher temperature operation. To maximize the energy 
        efficiency of fuel cell technology in stationary applications, 
        operation at slightly higher operating temperatures is desired 
        to allow for implementation of combined heat and power (CHP) 
        strategies and improved heat rejection. This is a major focus 
        of our fuel cell R&D and is an example of how we are working on 
        technologies that simultaneously address barriers for both 
        stationary and transportation applications.
  <bullet> Fuel processing. It is anticipated that most stationary fuel 
        cell systems will be fueled by natural gas or propane. The 
        Department is addressing this requirement through the 
        development of fuel processing technology that addresses issues 
        such as cost, sulfur tolerance and improved fuel processing 
        catalysts.

    To conclude my remarks about fuel cells and FreedomCAR, we are 
excited about the potential of PEM fuel cell and hydrogen technologies, 
and we intend to remain actively engaged in partnerships with industry, 
academia, national labs, and other government agencies to develop and 
commercialize them.
    Now I would like to turn to the subject of advanced lighting.

              U.S. ENERGY CONSUMPTION OF ELECTRICITY, 2001

    We consumed an estimated 96.3 quadrillion BTU's of primary energy 
in the United States in 2001, more than a third of which--or 35 quads--
were used to generate electricity.

                    ENERGY CONSUMPTION FOR LIGHTING

    A study \1\ done for the Department of Energy estimates the 
national primary energy needed to power all the lights in U.S. homes, 
offices, streets and other applications at approximately 8.2 quads. In 
other words, lighting consumes about 22% of the total electricity used 
in the United States.
---------------------------------------------------------------------------
    \1\ U.S. Lighting Market Characterization Volume I--National 
Lighting Inventory and Energy Consumption Estimate, Navigant 
Consulting, September 2002.
---------------------------------------------------------------------------
    The lion's share of energy consumption for lighting is in the 
commercial sector. Moreover, commercial lighting is, by itself, a peak 
load component. It also contributes to a building's internal heat 
budget and summer air-conditioning loads--another peak load component. 
Therefore, in many parts of the nation we can get the additional 
benefit of reducing peak electricity loads if we can develop more 
efficient lighting.
    Today, much of our lighting is relatively inefficient. My daughter 
once had an ``Easy Bake Oven'' that she used to bake cakes using an 
incandescent light bulb. It was a superb illustration of the fact that 
incandescent bulbs produce a good deal of heat as well as light--a 
testament to their inherent inefficiency. Incandescent light sources 
only produce about 15 lumens per watt.
    Compact and tubular fluorescent light bulbs with electronic 
ballasts are more efficient and produce far less heat than incandescent 
bulbs. These light sources produce up to 90 lumens per watt.
    We believe it is possible to produce higher quality lighting using 
advanced, solid-state technology that could deliver up to 150 lumens 
per watt, a 70% improvement over the best fluorescent lighting 
available today.

                        SOLID STATE INNOVATIONS

    The transition to solid-state technology in lighting would mirror 
similar advances made in other fields. Ever since the first transistors 
were produced and commercialized in the late 1940s and early 50s, the 
inherent efficiencies of solid-state electronics have been exploited in 
a variety of applications. Transistors have replaced vacuum tubes in 
radios and consumer electronics. Solidstate screens (thin-film 
transistors) have replaced cathode ray tubes in computers and 
television sets. Today, industry is working to develop even more 
efficient, higher performance Organic Light Emitting Diode (OLED) 
displays, including miniature, ultra-high resolution, personal displays 
that will soon appear in a variety of consumer products.
    In its simplest form, Solid State Lighting is like a photovoltaic 
cell running backwards--you put electrons in, and you get photons out. 
And you also enjoy significant advantages over conventional lighting 
sources such as longer life, improved efficiency, and resistance to 
vibration.
    Solid-state devices are already penetrating selected colored light 
applications such as traffic signals and exit signs. These devices 
provide better performance and lower maintenance with 80-90% reductions 
in energy consumption. But there are significant cost and technical 
barriers to the use of this technology in the ``white light'' market.
    My Office operates a Lighting Research and Development Program 
through our Building Technologies Program (BT). The mission of our 
Lighting R&D program is to increase efficiency in buildings by 
aggressively researching new lighting technologies that hold the 
promise of an annual savings of nearly 40% of lighting energy and $19 
billion in consumer expenditures by 2020. Our program if successfully 
developed, works in close cooperation with industry, and last year 
spent over $6 million in pursuit of its mission. We look at 
technologies that show promise in the short, medium and long-term.

                      SOLID STATE LIGHTING SOURCES

    Within the field of solid-state lighting, or Optoelectronics, there 
are three general technical subgroups, each of which can offer certain 
advantages for a range of applications.

  <bullet> Light Emitting Diodes, or LEDs, are already competing 
        effectively for signs and signal lighting applications, like 
        traffic lights and pedestrian crossing signals.
  <bullet> Organic Light Emitting Diodes, or OLEDs, are a flexible, 
        organic based cousin of LEDs. Not yet achieving the same 
        brightness as LEDs, current OLED development is focused on 
        large displays, personal display devices and instrumentation. 
        Our colleagues at the Defense Advanced Research Projects Agency 
        (DARPA) routinely work with many of the manufacturers to 
        advance ultra-high performance displays for military aviation 
        and other defense-related applications.
  <bullet> Other novel solid-state lighting, including light-producing 
        structures such as Vertical Cavity Surface Emitting Lasers 
        (``Vixels''), does not fit conveniently into the prior 
        categories. We can find successful commercial examples of this 
        technology in use today such as running the fiber-optic 
        backbone of the Internet, and performing critical medical and 
        scientific research.

          EXAMPLES OF SOLID STATE LIGHTING APPLICATIONS TODAY

    As I mentioned earlier, today's solid-state lamp can be found in 
many applications. You may be familiar with the NASDAQ sign in Times 
Square, powered by more than 18 million red, blue and green LEDs. Just 
like your television set, when perceived from a distance, the mix of 
these three primary colors produces white light--and various 
combinations of each can produce any color desired.
    Another display technology is pictured here in the upper right hand 
corner. Kodak and its consortium of partners have developed a prototype 
OLED display that may eventually replace the computer screens and TV 
monitors we have today. Based on the same principle of the three 
primary colors--but at a far greater resolution--we find this 
technology starting to be used today in some mobile phones and car 
radio displays.
    In the future, if research into this area is successful, these OLED 
displays could be formed into ceiling tiles and installed in our 
offices, being both the fixture and the light source-emitting white 
light or any other color we want. If the technology achieves its design 
objectives, it would be infinitely dimmable with no penalty in 
efficiency or life--thus making it a superb match for a building energy 
management system.

                      SOLID STATE LIGHTING ROADMAP

    Over the past two years, DOE has been working to realize the goal 
of solid-state lighting. In an effort to identify the technology path 
we should follow to enhance and accelerate the development of white 
light from solid-state sources, we convened eight workshops bringing 
together key stakeholders from industry, academia and the national 
labs.
    We have also sponsored a study to explore the magnitude of savings 
that might be possible from solid state lighting given various price 
performance scenarios. We will be happy to supply this to the 
Committee.
    In conclusion, solid-state lighting potentially offers the most 
efficient means of converting electrons into photons. Thus far, 
industry has focused on signals and displays. Continued research into 
the uses of solid state lighting for general illumination could help us 
maintain technological leadership and provide us with an important tool 
in improving the nation's energy efficiency, identified in the 
President's National Energy Policy as a ``national priority.'' We are 
looking at ways to accelerate this work through a stronger, better-
coordinated public-private partnership.
    Thank you, Mr. Chairman, for the opportunity to offer views on 
these important subjects. I would welcome any questions the Committee 
might have today or in the future.

    The Chairman. Well, thank you very much.
    Dr. Romig, why don't you go right ahead.

 STATEMENT OF ALTON D. ROMIG, JR., VICE PRESIDENT, SCIENCE AND 
    TECHNOLOGY AND STRATEGIC PARTNERSHIPS, SANDIA NATIONAL 
                          LABORATORIES

    Dr. Romig. Thank you, Senator Bingaman. As Sandia's Vice 
President for Science and Technology and Strategic 
Partnerships, I'm delighted to testify today on solid-state 
light research and development. In the time allotted, I will 
highlight a few of the major points contained in my prepared 
written statement.
    Senator Bingaman, first off, let me thank you for 
introducing legislation during the 107th Congress that would 
have authorized a next generation lighting initiative at the 
Department of Energy. Even though it did not become law, your 
bill certainly drew attention to this emerging technology and 
it has already stimulated programmatic support for solid-state 
lighting at DOE and elsewhere.
    As you know, several different research consortia are 
already forming in preparation for a national solid-state 
lighting initiative. Industrial membership includes such major 
U.S. firms as Dupont, 3M, Kodak, Agilent, Phillips, Osram and 
General Electric. This initiative will be a winner for all, 
benefitting both businesses and the consumer, and will 
encourage more high-technology industrial investments here in 
New Mexico.
    Solid-state lighting has potential for immense benefits. If 
most of the Nation's lighting could be converted to solid-
state, we would reduce our electricity consumption by the 
equivalent of all the power used by all the homes in 
California, Oregon and Washington combined, $25 billion worth 
of electricity per year. It would reduce the need for power 
generating capacity by 17,000 megawatts, or 17 very large 
powerplants. And finally, it would benefit the environment by 
reducing the greenhouse gases that are produced by fossil fuel-
based powerplants.
    What is solid-state lighting? Well, here's an example. Each 
one of these is only one-and-a-quarter watts. Let me make sure 
I don't blind anybody with it. It is rather bright; only one-
and-a-quarter watts apiece.
    But it's technology for getting white light from a piece of 
semiconductor material. The goal of solid-state lighting 
research is to replace all of the incandescent light bulbs and 
fluorescent lighting tubes in the workplace and in our homes, 
with semiconductor light-emitting diodes, or LEDs, that produce 
white light.
    In the past few years, a new class of semiconductor 
materials has been developed that make it possible to create 
LEDs that produce colors that were previously impossible; 
green, blue, violet, and most importantly again, white. And 
here's a small demo box, made by one of the members of our 
consortium, where you can see it can produce white and a 
variety of reds, blues, yellows, and you can do that just by 
simply having a different semiconductor inside each one of the 
envelopes to get the color that you desire.
    Fluorescent white LEDs are already commercially available 
with an energy efficiency better than that of incandescent 
light bulbs in your home, which are about 5 percent, but these 
solid-state lighting sources are still very expensive and not 
yet as efficient as most fluorescents.
    Our country's top semiconductor scientists, including those 
here at Sandia, believe that with sufficient research and 
development, it is possible, within 10 years, to make white 
LEDs that are 50 percent energy efficient. That's ten times the 
energy efficiency of incandescent bulbs, and far better than 
that of fluorescent tubes. And we also believe it will be 
possible to reduce the cost so that it is affordable to the 
consumer.
    Solid-state lighting will have a huge impact on the 
Nation's economic competitiveness. Lighting is a $40 billion 
per year global industry. I fully expect that New Mexico, with 
its rapidly developing optoelectronics research capabilities at 
Sandia, Los Alamos, UNM, New Mexico State, and several 
industrial entities, such as EMCORE, Zia Laser, Superior 
MicroPowders, and others, will be a major contributor to the 
growth of this new technology market.
    But for energy-efficient solid-state lighting to really 
take off, we need a national initiative, which means funding, 
for research and development involving Government, industry and 
universities in a partnership effort. We should not forget that 
large government-sponsored initiatives are already under way in 
Europe, Japan, Taiwan and Korea, and have been for up to three 
years, depending on which geographic region you're referring 
to.
    Senator Bingaman, we thank you for your continued support 
of a national research initiative in solid-state lighting. This 
concludes my summary remarks, and I would be pleased to respond 
to any questions you might have.
    [The prepared statement of Dr. Romig follows:]

Prepared Statement of Alton D. Romig, Jr., Vice President, Science and 
         Technology Partnerships, Sandia National Laboratories

                              INTRODUCTION

    Mr. Chairman, thank you for the opportunity to testify today on the 
promise of solid-state lighting technology and the research in this 
area that is being conducted at Sandia National Laboratories. I am 
Alton D. Romig, Jr., Vice President for Science and Technology and 
Strategic Partnerships, and also Chief Technology Officer, at Sandia. 
Sandia National Laboratories is managed and operated for the U. S. 
Department of Energy (DOE) by Sandia Corporation, a subsidiary of the 
Lockheed Martin Corporation.
    Sandia is a multiprogram laboratory of DOE and one of the three 
National Nuclear Security Administration (NNSA) laboratories with 
research and development responsibility for nuclear weapons. Sandia's 
job is the design, development, qualification, and certification of 
nearly all of the non-nuclear subsystems of nuclear weapons. We perform 
substantial work in programs closely related to nuclear weapons, 
including intelligence, nonproliferation, and treaty verification 
technologies. As a multiprogram national laboratory, Sandia also 
performs research and development for DOE's energy and science offices, 
as well as work in national security and homeland security for other 
agencies when our special capabilities can make significant 
contributions.
    I will begin my testimony with some background on solid-state 
lighting technology, the current state of development, and where we 
think the research is headed. I will then discuss the enormous 
beneficial impact that solid-state lighting can have on our nation's 
energy security, with the potential to reduce electricity consumption 
by 10 percent or more by 2025 over what it otherwise will be. I will 
also briefly describe Sandia's ongoing activities in solid-state 
lighting in partnership with industry. Finally, I will explain why we 
believe that a national initiative in solid-state lighting research and 
development involving government, industry, and universities will 
provide the best avenue for rapid development and adoption of this 
promising technology.

                THE DEVELOPMENT OF SOLID-STATE LIGHTING

    This year, about 20 percent of the United States' electricity 
consumption will be devoted to lighting. The vast majority of that 
lighting will be provided by incandescent and fluorescent bulbs, 
technologies that have been around for decades (or longer than a 
century in the case of incandescents). Incandescents are quite 
inefficient, with only about five or six percent of their electricity 
consumption being converted to visible light. The remainder is 
converted to waste heat, which contributes significantly to the cooling 
loads in buildings. Fluorescent lighting is better, but still converts 
only about 25 percent of the electrical energy into visible light. This 
wasted electricity represents an attractive target for reducing the 
nation's electricity bill.
    Solid-state lighting, however, is a new technology which has the 
potential to far exceed the energy efficiencies of incandescent and 
fluorescent lighting. Solid-state lighting uses light-emitting diodes 
or ``LEDs'' for illumination, the same devices that provide the letters 
on your clock radio. The term ``solid-state'' refers to the fact that 
the light in an LED is emitted from a solid object--a block of 
semiconductor--rather than from a vacuum tube, as in the case of 
incandescents and fluorescents. (Note: I will limit my remarks to LEDs 
made from inorganic semiconductor materials; but it should be 
acknowledged that organic-based LEDs, or OLEDs, fabricated from 
plastic-like materials, are also expected to play a role in solid-state 
lighting.)
    The first practical demonstration of an LED was in 1962. Since the 
late 1960s, the brightness of commercially available red LEDs has 
increased by a factor of 20 every ten years, while the cost has 
decreased by a factor of 10 every ten years. Early on, this rapid 
improvement in the technology resulted in LEDs replacing incandescent 
bulbs and other vacuum tubes that had previously been used for 
indicator lamps and numeric displays in electronics such as clock 
radios.
    A few years ago, an innovative new semiconductor material was 
developed--gallium nitride (GaN)--which enabled the development of the 
first LEDs with bright emission in the blue and green spectral range. 
(Previously, bright LEDs were available only in red and orange.) This 
was a crucial development, since now white light could be realized by 
mixing different wavelength light from multiple LEDs, or alternatively 
by down-converting blue light to other colors of longer wavelength 
using phosphors.
    In the past few years, the technology has progressed sufficiently 
that LEDs are now viable choices for single color applications such as 
traffic signals. Conventional 12-inch-diameter red traffic signals use 
a long-life, white, 140-watt incandescent bulb. The red filter over it 
discards 90 percent of the light, allowing only 200 lumens of the red 
light to pass through. A commercially available LED replacement 
manufactured by LumiLeds of San Jose, California, uses 18 red LEDs to 
provide the same amount of red light, but consumes only 14 watts. While 
LED traffic lights cost more than incandescents, the reduced 
electricity consumption allows them to pay for themselves in a year or 
less. They also last much longer, reducing maintenance costs. As a 
result, LED-based traffic signals are becoming widely adopted 
throughout the country. Similarly, 90 percent of exit signs, another 
single-color application, are now fabricated with LEDs.
    Of course, for general illumination, white light is required. LEDs 
must significantly improve to be economically competitive for general 
lighting. While today's white LEDs are more efficient than incandescent 
bulbs (25 lumens per watt vs. 15), they also cost as much as 100 times 
more per lumen. Moreover, they are not yet as efficient as fluorescent 
lamps (80 lumens per watt).
    Solid-state lighting promises better quality and more versatile 
sources of lighting, including the ability to tune colors to virtually 
any shade or tint. Because the light can be controlled with extremely 
high precision, it is believed that by interfacing it with modern 
microelectronics, a ``brave new world'' of digitally controlled 
illumination will be achieved. Such ``smart light'' could even be used 
to interface computers into networks through the lighting fixtures 
themselves. In addition, solid-state lighting offers other desirable 
qualities, such as light weight, thinness, low heat output, flexibility 
in installation, lifetimes approaching ten years and longer, and 
extreme resistance to mechanical shock.
    We believe that solid-state lighting can surpass conventional 
vacuum tube lighting technologies in both cost and performance within a 
relatively short time. With sufficient investment in research and 
development, it will be possible to produce a white LED with an energy 
efficiency of 150-200 lumens per watt, or 10 times the efficiency of 
incandescents and twice that of fluorescents. We expect that the cost 
of these highly efficient solid-state lights will be competitive, and 
that they can capture most of the lighting market by 2025.

                  THE PROMISE OF SOLID-STATE LIGHTING

    What would be the impact of replacing most of the lighting in the 
United States with LEDs? The benefits to the nation's energy security 
and economic competitiveness would truly be enormous. A number of 
studies <SUP>1,2</SUP> find the following benefits to the United States 
alone (with global benefits that are proportionately larger):
---------------------------------------------------------------------------
    \1\ M. Kendall, M. Scholand, ``Energy Savings Potential of Solid-
state Lighting in General Lighting Applications,'' U.S. Department of 
Energy, Washington, DC (April 2001).
    \2\ T. Drennan, R. Haitz, J. Tsao, ``A Market Diffusion and Energy 
Impact Model for Solid-state Lighting,'' presented at the 21st Annual 
North American Conference of the U.S. Association of Energy Economics 
and International Association for Energy Economics, Philadelphia, 
September 2000.

  <bullet> Reduction by 50 percent of electricity used for lighting
  <bullet> Reduction by 10 percent of total electricity consumption
  <bullet> Reduction by 17,000 megawatts of the demand for electrical 
        generating capacity (roughly equivalent to 17 large generating 
        plants or the residential demand from all the homes in 
        California, Oregon, and Washington)
  <bullet> Reduction in carbon emissions by the equivalent of 28 
        million tons per year

    These large reductions in the nation's energy demands will help 
decrease our dependence on foreign energy sources, lessen the impact on 
the environment, and increase the reliability and responsiveness of the 
nation's electrical grid. Of course, the availability of energy is a 
major national security concern that has profound geo-political 
implications.
    In addition, it should be noted that much of the fundamental 
technology being developed for solid-state lighting will provide 
ancillary benefits to a host of other national security interests. For 
instance, high-power electronics can use the semiconductor material 
gallium nitride (GaN), which may make it possible to manufacture 
lighter high-power electronic devices. The new unmanned aerial vehicles 
now being used to great advantage by the military would benefit from 
lighter radars and other electronics, so that they can fly longer and 
farther. Even more closely related to solid-state lighting is an 
approach to the detection of chemical and biological warfare agents. 
GaN can be used to make ultraviolet LEDs and lasers. When illuminated 
with ultraviolet light, many biological agents will fluoresce (re-emit 
light at a slightly longer wavelength). We are exploring the 
feasibility of this technique for rapidly identifying pathogens, such 
as anthrax.
    Finally, solid-state lighting will have an impact on our economic 
competitiveness, which is also a national security issue. Lighting is a 
$40 billion global industry, with the United States occupying roughly 
one-third of that market. With the higher performance and enhanced 
functionality that solid-state lighting offers, it is likely that the 
market will grow as new, unforeseen uses come into existence. I fully 
expect that New Mexico, with its rapidly expanding world-class 
optoelectronics research capabilities (including Sandia, Los Alamos, 
UNM, New Mexico State, and several industrial entities such as EMCORE, 
Zia Laser, Superior Micropowders, and others) will contribute to the 
growth of this new technology market.
    Europe, Japan, Taiwan, and Korea have all established large 
government-sponsored industrial research consortia to further develop 
solid-state lighting technologies. It is possible that without a 
substantial government/industry commitment in the United States, 
foreign competitors will come to dominate solid-state lighting. For all 
the reasons outlined above, this development would result in an 
unfavorable impact on our national security position.

          SANDIA'S RESEARCH ACTIVITIES IN SOLID-STATE LIGHTING

    Sandia has a long history of research in semiconductor 
optoelectronic devices. Indeed, we were pioneers in the technology of 
the vertical cavity surface emitting laser, or VCSEL, which is now a 
mainstay of the telecommunications industry.
    A few years ago we began to realize the tremendous possibilities 
presented by harnessing semiconductor technology for lighting. Sandia, 
working with leading industrial scientists from Agilent, wrote some of 
the first papers on solid-state lighting.<SUP>3,4</SUP> In 2000, we 
helped the Department of Energy and the Optoelectronics Industrial 
Development Association (OIDA) organize a national Solid-State Lighting 
Technology Roadmapping Workshop in Albuquerque. That workshop 
identified the major scientific and technological challenges to be 
overcome and established technology milestones for future years. A 
follow-up workshop, also in Albuquerque and partially organized by 
Sandia, was held in May and updated the challenges and milestones. 
Copies of the Roadmap Reports from both of these workshops are 
available from OIDA.<SUP>5,6</SUP>
---------------------------------------------------------------------------
    \3\ R. Haitz, F. Kish, J. Tsao, J. Nelson, ``The Case for a 
National Research Program on Semiconductor Lighting'' (1999). Hewlett-
Packard/Sandia National Laboratories white paper. Copies are available 
from Sandia National Laboratories through the Internet at http://
lighting.sandia.gov, and from the Optoelectronic Industry Development 
Association, 1133 Connecticut Ave. NW, Suite 600, Washington, DC 20036-
4380.
    \4\ R. Haitz, F. Kish, J. Tsao, J. Nelson, ``Another Semiconductor 
Revolution: This Time It's Lighting!'' Compound Semiconductor Magazine, 
Volume 6, No. 2 (March 2000).
    \5\ Light Emitting Diodes (LEDs) for General Illumination: An OIDA 
Technology Roadmap, Eric D. Jones, ed., Optoelectronic Industry 
Development Association (2001).
    \6\ Light Emitting Diodes (LEDs) for General Illumination II: An 
OIDA Technology Roadmap, Jeff Y. Tsao, ed., Optoelectronic Industry 
Development Association, in press.
---------------------------------------------------------------------------
    In the past couple of years, Sandia has also harnessed its 
optoelectronics expertise to perform internal research on solid-state 
lighting. Under the Laboratory-Directed Research and Development (LDRD) 
program, we are currently pursuing a Grand Challenge project devoted 
entirely to solid-state lighting. In fiscal year 2001, we invested $1.3 
million in this project; in 2002 we are investing $2.3 million; and in 
2003 we anticipate increasing our investment again. At present, 
approximately 25 investigators are involved in the project, either full 
or part-time. Our research seeks to overcome the technical challenges 
identified in the OIDA technology roadmaps. It focuses on the physics 
of defects and impurities in nitride-based semiconductors, growth of 
high-quality, low-cost, nitride semiconductor material, design of high-
efficiency LEDs, development of phosphors for white light, and 
encapsulants and packaging to give the LEDs long lifetimes. We are 
collaborating in these research areas with several universities and 
industrial partners.

             THE NEED FOR A GOVERNMENT/INDUSTRY PARTNERSHIP

    While numerous university, industry, and national laboratories are 
engaging in various aspects of solid-state lighting research, there is 
a general consensus that a government-sponsored national initiative is 
needed to make solid-state lighting a reality within a reasonable time. 
Such an initiative would involve a consortium of U.S. industries in 
partnership with universities and national laboratories. There are four 
reasons why such a partnership is desirable:

          1. Basic research in high-risk areas cannot easily be pursued 
        by industry alone, particularly in today's tough business 
        environment. This type of work provides understanding of the 
        underlying physics. Industry can rarely afford to devote 
        personnel and equipment for this high-risk, long-term activity. 
        Industry agrees that this type of pre-competitive research will 
        be essential for overcoming some of the challenges we face, and 
        several industrial firms have committed to substantial cost-
        sharing in a national initiative, both in-kind and with cash, 
        for this research.
          2. A national initiative will provide a unifying focus for 
        the entire effort, enabling research to be coordinated and 
        tasks efficiently assigned. This will help ensure that the 
        fundamental research performed at universities and national 
        labs focuses on the most relevant and promising areas, and that 
        industry remains abreast of recent developments and is able to 
        incorporate them in products rapidly.
          3. A national government/industry partnership will help to 
        develop an infrastructure of suppliers and equipment firms to 
        support the commercialization of this new technology.
          4. Finally, a national initiative in solid-state lighting 
        research will provide a long-term funding structure and 
        resources necessary to develop this new technology. While 
        solid-state lighting might become a reality without federal 
        investment, a government program would accelerate the process 
        by one or two decades.

    Studies <SUP>1,2</SUP> indicate that with an investment of 
approximately $50 million per year, solid-state lighting technology 
could be substantially achieved within ten years. The accelerated 
introduction of solid-state lighting would pay for itself many times 
over in reduced electricity charges to rate-payers alone. I have 
already mentioned the economic benefits that could be lost if we yield 
leadership in this field to other countries, which have ongoing 
government programs.
    The Next Generation Lighting Initiative Act introduced last year by 
Senator Bingaman and Senator Dewine proposes just such a government/
industry partnership. An industrial consortium, coordinated by the 
Optoelectronics Industrial Development Association (OIDA) has already 
been formed in preparation for enactment of this Initiative. Members 
include major firms such as Dupont, 3M, Kodak, Agilent, Philips, Osram, 
Corning, Siemens, and of course, General Electric. The Next Generation 
Lighting Initiative has many similarities with SEMATECH, the 
government-sponsored research and development consortium that began in 
the middle 1980s and helped develop high-tech process equipment for our 
semiconductor industry. We envision a second semiconductor revolution 
this time in lighting.

                         SUMMARY AND CONCLUSION

    The technology of solid-state lighting is destined to change our 
lives. Early maturation of this technology would lead to enormous 
benefits for the nation and indeed the world. Economic, environmental, 
and national security advantages will be realized, not only by the 
general reduction in total electricity consumption, but also through 
spin-off technologies emerging from the underlying semiconductor 
sciences.
    Although Sandia and other institutions in government, industry, and 
the academic sector are working hard on solid-state lighting, a 
national initiative based on a government/industry partnership would 
greatly accelerate the research and development process. This 
initiative will coordinate independent research efforts toward a common 
goal and will enable solid-state lighting to become commercially viable 
one or two decades earlier than might otherwise happen.
    Mr. Chairman, I would like to thank you for your vision and 
leadership in introducing legislation to make the Next Generation 
Lighting Initiative a reality. Sandia supports the Next Generation 
Lighting Initiative Act wholeheartedly, and we would like to offer our 
expertise in this national endeavor. We believe that the Next 
Generation Lighting Initiative will be a winner for all, benefiting 
both businesses and the consumer, both New Mexico and the nation, and 
indeed, humanity at large.

    The Chairman. Well, thank you very much.
    Dr. Becker, why don't you go ahead and give us General 
Electric's perspective on all this.

   STATEMENT OF CHARLES A. BECKER, Ph.D., MANAGER, LEDS FOR 
           LIGHTING, GE GLOBAL RESEARCH, GELCORE, LLC

    Dr. Becker. Okay.
    Senator Bingaman, I would like to thank you for the 
opportunity to testify today on behalf of the Next Generation 
Lighting Initiative. I am the project manager for advanced LED 
research at GE's Global Research Center in Schenectady, New 
York, and I am also the former vice president of Technology for 
GELcore LLC, which is located in Valley View, Ohio.
    GELcore is a joint venture between GE's lighting business 
and EMCORE. EMCORE has operations both here in New Mexico and 
in Somerset, New Jersey. GELcore is one of the world's largest 
suppliers of energy-saving LED-based systems with products 
today in traffic signals, signage and automotive applications.
    Mr. Moorer and Dr. Romig have amply described the energy 
savings opportunity of solid-state lighting as is envisioned in 
the Next Generation Lighting Initiative and have described, 
somewhat, about the exciting inorganic light-emitting 
technology, which would be critical to this revolution over the 
next decade. My written testimony is entirely consistent with 
these observations and elaborates on several examples.
    I mention here only one example to emphasize that energy 
savings are already being attained through LED technology. 
GELcore annually produces hundreds of thousands of LED traffic 
signals, which consume less than one-tenth of the energy used 
by traditional signals and last more than ten times as long. 
The energy savings from the GELcore signals installed last year 
alone will total over 150 million kilowatt hours each year, for 
years to come. That's enough energy to light about 17,000 
homes.
    GE and GELcore, investing heavily in solid-state lighting, 
believe it's crucial technology for global competitiveness. 
It's also a technology which is evolving extremely rapidly. 
Two-and-a-half years ago, the brightest white LED you could 
obtain commercially was a 2-lumen LED suitable for key chains 
and, basically, toys.
    A year-and-a-half ago, the industry introduced 25- to 30-
lumen LEDs, as Dr. Romig showed the board here, and earlier 
this year, 120-lumen LEDs were introduced. This factor of 60 in 
2\1/2\ years is an extremely rapid rate of progress, and it 
demonstrates how quickly this technology is evolving and has 
the potential to evolve going forward.
    I'll focus the remainder of my remarks on a very brief 
discussion on the promise of organic light-emitting diode 
technology, and then offer GE's perspective on the importance 
of the consortium structure and Government support for NGLI.
    Like inorganic LEDs described earlier, organic LEDs produce 
light directly from the energy transition of electrons inside 
solid materials. The difference is that the semiconductors in 
OLEDs are specialized plastics in sheet form. The state-of-the-
art of white OLED devices is several years behind that of LED 
devices, but is also progressing rapidly.
    GE Global Research, aided by Department of Energy funding, 
has produced the first white illumination-quality OLED devices 
in the past year. These devices now emit the same amount of 
light per unit area as typical fluorescent fixtures; however, 
the most advanced of these devices are still only six-by-six 
inches square. They produce about 70 lumens, and they have an 
efficiency of about half that of incandescent lamps.
    We see no fundamental physical reasons why, with 
development, this performance cannot equal that of inorganic 
LEDs and surpass that of traditional fluorescents and other 
light sources.
    The exciting draw for OLED technology as a compliment to 
inorganic LEDs is the potential for very low cost. We believe 
that these plastics can be manufactured at very high volumes in 
roll-to-roll machines that resemble printing presses, much like 
newspapers. They're inherently flat in nature, which makes them 
ideal for room illumination. With sufficient investment, we see 
OLEDs and LEDs as complimentary long-term solid-state lighting 
components.
    Mr. Chairman, GELcore and GE view increased government 
support of solid-state lighting as a critical element in our 
global technology competitiveness. We've been strong supporters 
of what is now called the Next Generation Lighting Initiative 
since it was first proposed by the Sandia and Hewlett-Packard 
white paper in early 2000. Thanks to your leadership in 
introducing the next generation lighting bill, this vision has 
become a reality with significant momentum and broad industry 
support over the past year-and-a-half.
    GE and GELcore are both charter members in the next 
generation lighting consortia. Working with the Department of 
Energy, other major lighting companies, national labs and 
universities, we have helped create detailed technical roadmaps 
for both LED and OLED technologies as described by Mr. Moorer.
    We believe that the most effective way to achieve the many 
technical breakthroughs needed to make solid-state lighting 
practical and affordable is by close industry development and 
Department of Energy cooperation and investment in basic 
research starting as quickly as possible.
    As stated by Dr. Romig, significant Government investment 
is already in place around the world, trying to capture the 
critical enabling technologies for light sources of the future.
    Thank you for your continued support of the Next Generation 
Lighting Initiative and for giving me an opportunity to speak 
here today. I'd be happy to respond to any questions that you 
might have.
    [The prepared statement of Dr. Becker follows:]

       Prepared Statement of Charles A. Becker, Ph.D., Manager, 
          LEDs for Lighting, GE Global Research, Gelcore, LLC

                              INTRODUCTION

    Mr. Chairman, I appreciate the opportunity to testify today on a 
very important initiative for energy efficiency, the Next Generation 
Lighting Initiative (NGLI). NGLI, which is authorized in pending House 
and Senate energy legislation, brings together government, industry, 
national laboratories, and academia to develop a new form of energy-
efficient lighting based on solid state light sources. It is a part of 
the Lighting Research and Development budget of the Department of 
Energy's Office of Building Technology, State and Community programs.
    Despite an on-going U.S. industry and government investment and 
commitment to the development of energy-saving solid state lighting, 
substantial technical obstacles remain. Full scale commercial 
deployment will be significantly delayed, or achieved first by foreign 
competitors, unless an effective and coordinated U.S. government and 
industry research and development effort is launched. The objective of 
NGLI, which is built around a 10-year program within the Department of 
Energy and a consortium led by the solid state lighting industry, is to 
accelerate the US-based research and development necessary for 
transforming solid state lighting into a primary source for the 
nation's and the world's general lighting needs.
    In anticipation of NGLI, several leading optoelectronics and 
lighting companies--including General Electric, GELcore, Emcore, 
Philips, Agilent, LumiLeds, Osram, 3M, Corning, and Cree--have already 
joined in a solid state lighting consortium, coordinated by the 
Optoelectronics Industry Development Association (OIDA). In addition to 
this industry support, NGLI has support from the Department of Energy. 
Both the Office of Energy Efficiency/Renewable energy, represented here 
by Secretary Garman, and Sandia National Lab, represented by Dr. Romig, 
have played critical roles in shaping the technical program to ensure 
success. Mr. Chairman, you and Senator DeWine introduced the original 
legislation for Next Generation Lighting in the spring of 2001. Since 
that time, many Members of Congress have strongly endorsed the 
initiative. In fact, 22 members of the Senate and 22 members of the 
House of Representatives wrote letters to endorse funding for NGLI in 
fiscal year 2003. The Secretary of Energy this summer used solid state 
lighting as an example of an initiative that could have high impact on 
energy efficiency.
    This strong show of government interest, as well as the technology 
road mapping activities sponsored by OIDA and the DOE, have already 
created tremendous momentum in the community towards achieving the 
goals of NGLI, and have aroused the interest of numerous leading U.S. 
universities, who are anxious to focus their research in this area.
    General Electric has a longstanding commitment to energy efficient 
lighting, as evidenced by several successful programs in conventional 
lighting with the Department of Energy's Office of Building Technology. 
In 1999, GE Lighting teamed with Emcore, a leading manufacturer of wide 
bandgap semiconductor equipment and devices, to form the GELcore joint 
venture, with a clear charter to forge the way in solid state lighting. 
To accomplish this task, GELcore draws on the technology strengths of 
GE Lighting, GE Global Research, and Emcore, as well as the global 
market access and application knowledge of GE Lighting.
    While investing heavily in the advanced technology required to 
enable white solid state lighting in the future, GELcore is already 
helping to reduce energy consumption through Light Emitting Diode (LED) 
applications. We are one of the largest North American manufacturers of 
LED traffic signals, which reduce electricity usage by up to 90% in 
hundreds of thousands of installations across the country. GELcore 
traffic signals sold in the U.S. over the last year will save more than 
150 million kilowatt hours of electricity every year for many years to 
come! GELcore has also recently introduced Tetra<SUP>TM</SUP>, a new 
LED system that replaces the neon tubes currently used in channel 
letter signs on commercial buildings, again reducing the energy used by 
80% or more.
    Finally, GE Lighting and GE Global Research, with Department of 
Energy help, are also investing in Organic Light Emitting Diode (OLED) 
white light technology. While this technology is several years less 
mature and more risky than inorganic light emitting diodes, it holds 
the promise of very low costs for large area lighting panels, as I will 
explain later.

              THE NEED FOR MORE ENERGY EFFICIENT LIGHTING

    Lighting consumes a large and growing portion of all energy 
generated in the United States--currently over 20 percent. Improvements 
in lighting must be a primary focus to limit future growth in energy 
consumption.
    The incandescent light bulb and the fluorescent light tube have 
long been the primary sources for general lighting needs. As very 
mature technologies, these light sources have achieved only incremental 
improvements over the last decades, and are near their maximum 
potential energy efficiencies. Both convert only a small portion of the 
energy they consume into visible light. A 100-watt incandescent light 
bulb, for example, generates light from a glowing hot filament, 
emitting only 5 percent of the energy it consumes as useful light, and 
the rest as heat. Fluorescent tubes generate light by converting an 
ultraviolet discharge from mercury gas to white light, but still 
convert less than 30% of their electrical consumption into usable 
light, the remainder ending up as waste heat. These inefficiencies are 
the result of fundamental physics and are not subject to significant 
improvements.
    Solid State Lighting is based on the generation of light by 
inorganic or organic semiconductor light emitting diodes. LEDs and 
OLEDs are new technologies for light generation, and are governed by 
different physical principles than conventional lighting. These 
technologies today can convert over 50% of their electrical energy into 
usable light in limited cases, and have the potential to approach 100% 
conversion if certain technical barriers are overcome. The goal of the 
NGLI program is to develop practical, affordable white lamps with more 
than twice the efficiency of today's fluorescent lamps.

         SOLID STATE LIGHTING: THE TECHNOLOGY AND ITS BENEFITS

    Solid state lighting technology utilizes semiconductor devices 
known as light emitting diodes or organic light emitting diodes to 
generate light directly from the energy transitions of electrons in 
semiconductor structures. Like solid state integrated circuits, these 
devices are potentially highly energy efficient, long lasting, and 
robust. In addition, like integrated circuits, their cost of 
manufacture can be reduced exponentially year after year, as the 
technology matures and volumes increase. By comparison, traditional 
light bulbs are like the vacuum tubes of more than 30 years ago--short 
lived, mechanically fragile, expensive, and hot. In addition, lighting 
devices based on LEDs and OLEDs will offer a variety of new consumer 
advantages, including extremely long lives, highly directional 
lighting, reduced ``light pollution,'' a wide choice of colors, and 
easy brightness adjustment.

LEDs
    General Electric scientists actually invented the first inorganic 
LEDs 40 years ago, but the brightness levels and available colors were 
such that, until fairly recently, these devices have been useful only 
as indicator or panel lights, such as those on electronic equipment. 
Over the last decade, continuous improvements in LED lamp efficiency, 
and the discovery of new semiconductor systems that allow all visible 
colors to be efficiently generated, have made it possible to produce 
LEDs that can actually throw usable light for illuminating other 
objects. It has been practical since the mid nineties to use LEDs in 
applications such as traffic lights, highway and exit signs, large area 
video displays, and certain automotive lighting. However, in order to 
achieve mass market acceptance of solid state lighting, particularly as 
a source for general lighting needs, we still need to improve 
efficiencies by nearly a factor of ten, reduce costs by a factor of 
more than 100, improve the color characteristics, and create the 
standards and infrastructure to allow easy use and interchangeability 
among brands and fixtures. Once these obstacles are overcome, the full-
scale deployment of solid state lighting technology offers the 
potential for the substantial economic, environmental, consumer, and 
other benefits outlined by Secretary Garman and Dr. Romig.
    A typical white LED lamp is a system that consists of one or more 
semiconductor chips, a phosphor for converting the single color 
emission of the chip into white light, and a package which holds and 
protects the chip and phosphor, removes waste heat, and shapes the 
light output. Reaching the efficiency and cost levels envisioned by 
NGLI will require significant improvement in all of these components 
and in the optimization of the entire system.
    As just one example of dozens of technologies which need 
improvement, we can consider the growth of the light emitting 
semiconductor that is fashioned into an LED chip. Current state of the 
art production for blue LEDs requires the growth of what is called a 
wide bandgap semiconductor material on specialized, expensive wafers 
made of either sapphire or silicon carbide. Multi million dollar 
machines are used to grow this semiconductor layer one atomic layer at 
a time in a several hour process on 2 or 3 inch diameter wafers. 
Although a single wafer can produce over ten thousand small LED chips, 
current yields can be as low 50%. As the experience of the silicon chip 
industry over the last half of the 20th century shows, larger wafer 
diameters, better starting materials, more efficient growth machines, 
and traditional yield improvement techniques can dramatically reduce 
the finished cost of chip, while simultaneously improving performance. 
The NGLI roadmap calls for the industry to ``stand on the shoulders'' 
of the silicon chip industry, forging new technologies only where they 
are required by the unique problems of generating light rather than 
logic from chips.

OLEDS
    Organic LEDs, or OLEDS, also produce light directly from the energy 
transitions of electrons, but do so in specialized organic materials, 
rather than in crystalline inorganic semiconductors. These light 
emitting organic materials are placed between electrical contacts on 
large area glass or plastic sheets, and emit light when current is 
passed through them. Since the processing of such sheets can be done in 
large machines like printing presses, rather than in typical 
semiconductor equipment, OLEDS can potentially be made extremely 
inexpensively.
    The state of the art in white OLEDS is years behind that in LED 
systems, but is rapidly improving, with the efficiencies of some colors 
increasing by over 100 fold in less than 10 years. Substantial 
challenges for this technology remain in overall efficiency, lifetime, 
and the demonstration of the expected low cost manufacturing methods. 
New light emitting materials, sealing techniques, and high speed 
manufacturing processes are all required. An adjacent industry, which 
is synergistic to this technology, is the development of large area, 
organic material based photovoltaic cells.
Infrastructure
    To realize the full savings potential of solid state lighting, the 
industry must also develop and adopt a number of ``system'' standards, 
making LED or OLED based light sources as practical and easy to use as 
today's common incandescent or fluorescent lamps. The technical 
roadmaps created by the industry with DoE involvement also address 
these areas. As an example, new, highly efficient power supplies and 
control systems and technologies will be needed to provide the voltages 
required by LED and OLED systems. In addition, since we have far more 
control over the color and placement of light with solid state sources, 
human factors studies will be needed to optimize lighting for the 
working and living environments.

Impact
    It is estimated that, given expected market penetration, solid 
state lighting could reduce global electricity usage for lighting by 50 
percent over the next twenty years and reduce total global electricity 
consumption by 10 percent. These changes equate to an overall reduction 
in annual global energy needs of 1,000 terawatt-hours representing an 
annual saving of over 100 billion dollars. The energy efficiency of 
these devices will also translate into major reductions in carbon 
emissions. It has been estimated that the United States alone could 
avoid over 200 million metric tons of cumulative carbon emissions by 
2020 if solid state lighting garners a significant share of the general 
lighting market.
    Solid state lighting promises better quality and more versatile 
sources of lighting, including the ability to tune colors to virtually 
any shade or tint. It also offers other desirable qualities, such as 
light weight, small size, flexibility in deployment, and compatibility 
with integrated circuits to produce ``smart'' light.
    Finally, solid state lighting will be far more cost efficient in 
terms of product maintenance and replacement. Unlike incandescent bulbs 
and fluorescent tubes, LEDs and OLEDs are durable, long lasting, and 
easier to operate and control. An example is this LED based stoplight, 
which can be guaranteed for at least five year operation, and replaces 
incandescent lamps requiring replacement as often as twice per year. In 
some architectural applications, the very long life of LEDs may even 
make it possible to incorporate them as a permanent part of the 
structure, significantly reducing overall costs and building 
maintenance.
    Moreover, a flourishing solid state lighting industry will have 
other important economic benefits to the United States in terms of 
employment, growth in supplier and equipment industries, research and 
development and new applications. As Dr. Romig points out, there are 
also substantial potential benefits to the general wide bandgap 
semiconductor industry, with multiple industrial and national defense 
applications. Furthermore, as solid state lighting becomes a leading 
source for general lighting outside the United States, the U.S. solid 
state lighting and related industries will reap expanded economic 
benefits for the nation.

             THE NEED FOR A GOVERNMENT-INDUSTRY INITIATIVE

    Based on the benefits of solid state lighting, including the need 
to reduce energy consumption related to lighting, a government-industry 
initiative to develop and mass market this technology will be in the 
United States' economic and energy security interests. The United 
States will benefit not only from major energy and cost savings, 
improved lighting quality, and a positive environmental impact, but 
also from the ability to enhance and maintain the competitiveness of 
the U.S. solid state lighting industry at a time when this technology 
is being aggressively pursued by other nations.
    Efforts are underway in other countries to rapidly develop solid 
state lighting as a viable alternative to conventional lighting 
technologies. Government-sponsored industry consortia have been 
established in Japan, Korea, and Taiwan to develop more efficient solid 
state lighting technologies. It is generally believed that without a 
substantial government-industry commitment in the United States, 
competitors such as Japan and Taiwan will come to dominate solid state 
lighting and become the standard-bearers of this important technology.
    Current technology roadmaps for solid state lighting indicate that 
the cost reductions and product development work necessary to 
commercialize this technology for the general lighting market could 
take a minimum of 12-18 years. The implementation of a focused 
government-industry initiative to further develop this technology for 
general illumination will substantially reduce this timeframe. Such a 
shared initiative would reduce the cost of research and development, 
enable important information sharing, and accelerate technology 
innovation and the development of domestic and international standards.
    The companies which have formed the solid state lighting consortium 
will continue to invest heavily in this technology, even in the absence 
of NGLI.. However, there are clearly major advantages that will accrue 
from the forming and funding of NGLI.
    First, such a coordinated program will significantly accelerate the 
development of key underlying technologies by providing both industry 
and government funding and sharing of critical pre-competitive high 
risk technologies which no one company can afford.
    Second, the communication forum and mutual trust that such an 
arrangement between industry and the DOE provides will allow faster 
progress by all companies involved and the industry as a whole. The 
SEMATECH consortium formed in the 1980's is an outstanding model for 
the potential of such research cooperation and scientific collaboration 
between major industry players, their suppliers, end users, 
universities, national labs, and the government to meet and outperform 
global competition.
    Finally, by involving not only the large lighting companies, but 
also the equipment, packaging, fixture, architectural, and other 
infrastructure companies in the lighting industry, this initiative will 
speed the practical market acceptance of solid state lighting. The most 
efficient lighting technology in the world will not save energy unless 
it is practical, easy, and cost efficient to install.

    The Chairman. Well, thank you, all three, for excellent 
testimony.
    Let me start by asking you, Mr. Moorer, if you had a chance 
to review the proposal that we did introduce in this last 
Congress to establish a next generation lighting initiative and 
essentially commit substantially increased level of Federal 
support to work with industry to develop this technology. Have 
you reviewed that? Do you have a position on that, or any 
thoughts on the appropriateness and value of that?
    Mr. Moorer. Yes, sir, Mr. Chairman. I have not reviewed it 
in its entirety, but I am familiar with it. I don't have a 
position on it, but I would like to make the comment that we 
are always looking for opportunities to develop public-private 
partnerships, and we always try and make sure that we can make 
a case that there is a need for a Federal role in developing 
technology.
    We try to make sure that we can define a very clear 
strategy for such a partnership, that we have measurable goals, 
and that we are always evaluating the progress of that 
partnership against what is really the changing marketplace, 
and that's something that we look to industry to do.
    In our own program, we continue to look for ways to 
increase the amount of emphasis that we're putting on solid-
state lighting, and I think I would leave it at that.
    The Chairman. Let me just ask, you know, one of the 
analogies that has been referred to by many is what the Federal 
Government did with the semiconductor industry, when it 
initially provided funding, for several years, for the SEMATECH 
operation, which established itself down in Austin, Texas. That 
was a circumstance where the Reagan administration stepped up 
and committed Federal funds through the Department of Defense. 
Secretary Weinberger supported that initiative as Secretary of 
Defense, and the result that--at least as I have understood the 
history, and some of you on the panel probably could correct me 
on this, but the result was that the U.S. firms in the 
semiconductor business were able to retain and capture a 
substantially larger portion of the employment and market and 
have maintained it through today, as we can see with Intel's 
operation across the river here.
    Is that--is an analogy between where we are today in solid-
state lighting and where the semiconductor industry was back in 
the early 1980's or mid-1980's with semiconductors, is that a 
reasonable analogy, Mr. Moorer, or not?
    Mr. Moorer. I think it is a fairly reasonable analogy, and 
I think that we've really stepped up the amount of work that 
we've done just in the last year-and-a-half with respect to the 
workshops that I mentioned in my testimony, to try to get 
together with the industry and with the national laboratories 
to actually try and see what we can develop.
    The Chairman. Let me ask, Dr. Becker, you referred, and 
also Dr. Romig referred, to these efforts that are being made 
in some other countries. I think you mentioned Europe, Japan, 
Taiwan and Korea.
    Dr. Becker. Yes.
    The Chairman. What is the extent of those efforts? Are they 
essentially what we're doing, the development of roadmaps, 
workshops, or is there real long-term commitment funding? What 
is happening in these areas?
    Dr. Becker. I'll speak about the Japanese commitment, which 
I believe is currently 5 years, approximately $50 million per 
year of government subsidy. We've heard recently that there's a 
move afoot underneath this initiative to actually increase and 
lengthen that initiative within Japan. It's called the 21st 
Century Lighting Initiative. It consists of the major Japanese 
lighting companies, as well as several of the semiconductor 
companies. It is focusing on developing ultraviolet-based white 
LEDs. These would be LEDs that might have--well, mostly have an 
advantage in terms of the quality of color.
    As you know, the adoption of some lighting technologies, 
such as compact fluorescents, has been fairly slow because 
people dislike the color, dislike the long warm-up time. We 
believe that LEDs, if we're not careful, may suffer the same 
fate, so we're working very hard to understand the quality of 
light that's required, and the Japanese initiative seems to be 
focused on that.
    A more recent initiative is starting up in Taiwan, which 
has installed an incredible capacity over the last few years. 
This is the type of reactors needed for LED technology and has 
begun to enter the white LED market at the low end, but has set 
its sights very high.
    The Chairman. Dr. Romig, did you have any information you 
could give us on these other efforts that are going on 
internationally?
    Dr. Romig. I think the one place where I would add a 
comment is the European effort is more recent than the 
Japanese. They're in their second year, but their strategy is 
very much the same around roadmapping, equipment, producing of 
products, and it has a level of funding that is, in fact, on 
that same order of magnitude, around 50 million U.S. dollars 
per year.
    I'd also to like add a comment about your SEMATECH. Having 
been involved in that program, I do see one difference in this 
initiative and SEMATECH: it's one where individuals such as 
yourself will be so vitally important. In the case of 
semiconductors, we, of course, were the world leaders, and we 
lost that leadership position, and we all know that Americans 
are very good at reacting to things, and so we reacted to that 
loss of leadership underneath a potential threat to our 
national security.
    This is a case where it's a new ball game, and it's not a 
matter of getting back into it, and so you can't quite ring the 
alarm bells the same as you could around semiconductors, and so 
although the business model is a very good analogy, the 
political courage to drive this one forward will be a little 
more challenging, I think, than SEMATECH was.
    The Chairman. Is there a funding available today to assist 
with these technologies, Mr. Moorer, and how does it compare to 
the 50 million a year that Dr. Becker referred to in Japan?
    Mr. Moorer. We are spending about 4 million a year right 
now in this area on a program that's totally directed at this. 
We have some other programs that are targeted at small 
businesses and universities where we try to take some of our 
high-priority areas of research and get some funding done 
there, so if you were to add those projects, as well, it 
approaches about $6 million a year in support right now.
    The Chairman. Do you know if there's a plan in the upcoming 
budget submission to the Congress to increase that?
    Mr. Moorer. I probably shouldn't comment on that, Mr. 
Chairman, at this point.
    The Chairman. Okay. That's still in the works.
    Mr. Moorer. Yes, sir.
    The Chairman. Okay. Let me ask another--since you're only 
testifying on this first panel, Mr. Moorer, you did testify 
both about the solid-state lighting and the fuel cell 
technology. One concern that I've got, and I think some of the 
witnesses on the second panel will bring this out, but since 
you won't be back up here as a witness, let me ask you about 
it.
    Ned Godshall, the CEO of MesoFuel, he has in his testimony 
here a statement that I think is interesting. He says, 
``Government investment in hydrogen generation and hydrocarbon 
reforming will have a far bigger impact on fuel cell adoption 
rates than additional funds applied to either fuel cells or 
cars.''
    Now, the effort that the administration has made to date 
with the FreedomCAR, that being, as you've pointed out, the 
flagship project to move us into a hydrogen economy, hydrogen-
based economy, would seem to assume something else, would seem 
to disagree with what Dr. Godshall--or Ned Godshall--is saying 
here. What is your response to that?
    Mr. Moorer. Well, I think if we strictly look at the 
dollars being invested being his point, and I hate to try to 
speculate on his comment, we are spending within the Office of 
Energy Efficiency and Renewable Energy about $2 to 1 for fuel 
cell and propulsion technology versus hydrogen production, if I 
think that's where he's coming from.
    However, if you look at the entire Department of Energy, 
and look at all of the work that we have going on right now, 
there is a fair amount of work that you might define as 
indirectly supportive of hydrogen production. If you look at 
the fossil program and the work that's being done there on 
gasification and those sorts of technologies, there is a fair 
amount of work that would be considered indirectly supportive 
of the production of hydrogen.
    I think I should point out that there are a couple things 
that have happened that are trying to make sure that we, in 
fact, do have a balanced program. One is the hydrogen roadmap 
that I mentioned in my testimony.
    We're also, right now, involved in producing a hydrogen 
posture plan which continues to follow through on making sure 
that we have a balanced program with respect to both, not just 
the production and the use of that hydrogen, but also how do we 
move it? How do we store it? So there are a whole host of 
issues in trying to drive home the hydrogen economy.
    The Chairman. Did you say you have something else that's 
coming out in addition to the hydrogen--so-called hydrogen 
roadmap that you've already issued?
    What is that that's coming out?
    Mr. Moorer. It's a so-called posture plan, the Under 
Secretary has asked us for, which is something that we're doing 
in connection with that roadmap.
    The Chairman. And who is developing this posture plan?
    Mr. Moorer. It's an effort to, you know, there's always 
this challenge of trying to coordinate activities across 
various elements of not just a single department, but various 
governmental agencies, as well as trying to get a handle on 
what's happening in the industry, and what we're trying to do 
here is basically follow through on the hydrogen roadmap, which 
asked us to try to bring together all of the elements within 
the Department of Energy that are working on fuel cell 
technology and the fuels that would power those fuel cells.
    The Chairman. But this posture plan is being developed 
internally within the department; it's not an outside group.
    Mr. Moorer. That's correct. That's correct.
    The Chairman. Okay. All right. Well, thank you. I think 
this is useful testimony, and obviously, we'll have a chance to 
get into some of the hydrogen and fuel cell issues in more 
depth here with the second panel.
    Let me just thank all the witnesses, and particularly thank 
Dr. Becker and Dr. Romig for your support of this next 
generation lighting effort. We will continue to push that in 
the new Congress, and we hope very much we can persuade the 
Department of Energy to support that. I think it would be a 
very good thing and might actually create some jobs, which 
would be a good thing.
    Mr. Moorer. Mr. Chairman, if I may?
    The Chairman. Yes.
    Mr. Moorer. You asked me, before the hearing started, about 
the juxtaposition of these two topics at today's hearing, and 
it strikes me that there are some major common issues that face 
both these exciting areas.
    One is this issue of U.S. superiority or U.S. leadership in 
both these areas. We're seeing foreign investment, foreign 
government support, both in solid-state lighting and in fuel 
cell technology, rapidly growing. We have the need for public-
private partnerships, trying to make sure that the Government 
is working in an appropriate way with the private sector, and 
then, finally, recognizing the value of our national 
laboratories. I believe both these areas can benefit from that. 
Thank you.
    The Chairman. All right. Thank you all very much. Why don't 
we go ahead with the second panel, Dr. Stroh with Los Alamos 
National Laboratory; Dr. Mark Hampden-Smith, and Dr. Ned 
Godshall.
    Okay. I already went through a very short introduction of 
each of you. Why don't we just--if no one has any particular 
preference on this, Dr. Stroh, why don't you start, and we'll 
just come right down the table here and hear from each of you, 
and then I'll have a few questions. Go right ahead.

   STATEMENT OF DR. KENNETH R. STROH, MATERIALS SCIENCE AND 
      TECHNOLOGY DIVISION, LOS ALAMOS NATIONAL LABORATORY

    Dr. Stroh. Thank you, Mr. Chairman, for the opportunity to 
report this morning on the status of our hydrogen and fuel cell 
programs at Los Alamos National Laboratory. I'm Ken Stroh, and 
I've worked at Los Alamos for nearly 25 years on energy systems 
design, analysis and testing, but for the last 10 years, my 
focus has been on fuel cells, and I currently manage the lab-
wide efforts on hydrogen, fuel cells and vehicle technologies 
at Los Alamos. I expand on the brief comments I'm going to make 
here this morning in my written testimony.
    Since 1977, the laboratory has been performing leading-edge 
research on polymer electrolyte membrane, or PEM, fuel cells 
and the supporting technologies, with our primary funding 
coming from the U.S. Department of Energy. Fuel cells directly 
convert the chemical energy in a fuel to electricity with 
higher efficiency and reduced environmental impacts compared to 
fuel combustion and energy conversion in conventional engines 
or turbines.
    These highly efficient power conversion systems are fueled 
by hydrogen and have emissions of greenhouse gases and criteria 
pollutants that can approach zero when the hydrogen is made 
from a clean process. Hydrogen can be derived from an array of 
diverse domestic energy sources, thereby adding to our energy 
security.
    Systems coupling hydrogen production from water via 
electrolysis, together with hydrogen storage and fuel cells, if 
such systems can be made economical and durable, would enable 
intermittent renewable energy sources, such as the sun and the 
wind, to drive systems that dispatch power on demand. Such 
systems could be ideal for off-grid power in remote locations 
or as part of a distributed power system and would be emission-
free and, more importantly, sustainable.
    The hydrogen and fuel cells program in Los Alamos has 
helped advance these technologies to the point where they can 
be considered for broad application to our power needs; for 
applications that range from cell phones, laptop computers and 
portable electronics, to combined heat and power for 
residential, commercial and industrial buildings, to 
transportation.
    The focus of the Los Alamos effort over many years has been 
on pre-competitive fundamental research that thereby enables 
knowledge-based innovation. Deputy Assistant Secretary Moorer 
mentioned one such area in the reduction of the amount of 
platinum catalyst required, an enabling breakthrough for the 
industry. Our goal is to further reduce or even eliminate the 
need for this expensive and limited commodity.
    Collaboration with industry has been a characteristic of 
the Los Alamos program from the earliest days. In a recent 
letter to the Department of Energy, the co-director of General 
Motors Global Alternative Propulsion Center stated, 
``Collaboration with Los Alamos, supported by the Department of 
Energy, serves as the technical foundation for the intensive 
development effort in fuel cells at General Motors today.''
    Many key players in the emerging domestic fuel cell 
industry trained or worked in the Los Alamos program. And many 
of the first tests of pre-commercial products developed by 
these companies were performed at the laboratory.
    Although the promise of a sustainable clean energy future 
based on renewable hydrogen and fuel cells is compelling, many 
technical barriers remain to realizing that vision. State-of-
the-art fuel cells are still too expensive, even when one 
considers the cost savings of mass production, and they are 
still too large, too heavy, too fragile for widespread 
application. Hydrogen generation and storage present additional 
challenges.
    The continuing contraction of the fledgling fuel cell 
industry, and layoffs among the survivors, demonstrate the 
technology, though promising, is not yet commercially viable. 
There is a growing industrial consensus that significant 
increases in fundamental, pre-competitive research and 
development are essential to enable the innovation that is 
required if fuel cell systems are to become competitive.
    Los Alamos conducts a broad-ranging fundamental research 
and development program for the Department of Energy's Office 
of Energy Efficiency and Renewable Energy, which is aimed at 
the necessary cost reductions, performance improvement and 
durability enhancements. We receive additional funding in 
focused areas from the DOE's Office of Science and Office of 
Fossil Energy and from the Defense Advanced Research Project 
Agency, and also directly from industry; however, no single 
laboratory or company can meet the R&D demands, so partnering 
is essential.
    Mr. Moorer also described the FreedomCAR initiative where 
Los Alamos provides the major portion of the fundamental fuel 
cell R&D. I represent the laboratory as one of two non-industry 
members on the FreedomCAR Fuel Cell Technology Team. This team, 
acting under the umbrella of the United States Council for 
Automotive Research, provides technical comment and industry 
perspective on the department's technical targets and on its 
research and development approach through monthly review 
meetings.
    Cooperative research and development agreements with 
industry, known as CRADAs, provide both technology transfer to 
the industry and further insights for the researchers into the 
barriers to commercialization, which then helps to catalyze the 
innovation that will lead to the next generation of fuel cells 
and supporting technologies. Our current CRADA partners include 
Motorola, Dupont and the Donaldson Corporation.
    Los Alamos works with eight other national laboratories 
participating in the DOE hydrogen and fuel cell programs and 
with supporting companies, such as Superior MicroPowders 
represented on the panel here today. We also have placed eight 
coordinating university subcontracts for higher-temperature 
membrane R&D that are further supplemented by a subcontract 
with NASA's Jet Propulsion Laboratory.
    For the future, the President's budget request for fiscal 
year 2003 contains language to initiate establishment of a fuel 
cell national resource center at Los Alamos National Laboratory 
to provide national focus and an integrated approach to 
addressing technical barriers to polymer electrolyte membrane 
fuel cell commercialization. This would be a national user 
facility for research and development and testing.
    While the designation of a national fuel cell center and 
details of the center's work scope, operation and funding 
requirements are subject to further discussion with the 
sponsors, we believe the center, if established, will focus on 
close collaboration with industry, universities and other 
national laboratories, and will perform fundamental research 
enabling the next generation of fuel cells and related 
technologies that have the necessary reduced cost and higher 
performance and increased durability.
    The center will also provide resources in the form of 
access to the existing knowledge base, access to experts in the 
field and access to state-of-the-art experimental and 
analytical capabilities, and it could provide a magnet for 
regional economic development; however, realizing this vision 
will require additional investment in the facility's equipment 
and people.
    In conclusion, for more than 20 years, Los Alamos has 
developed the fundamental knowledge and technology innovations 
enabling the current generation of low-temperature fuel cells. 
This technology, if it can be made affordable and durable with 
acceptable power and energy density, will enable a truly 
sustainable energy future that is both emissions-free and that 
conserves nonrenewable resources. Our country faces ongoing and 
new challenges in energy, environment and economic security. 
Our laboratory is committed to meeting these challenges for our 
Nation and the world.
    Finally, I would like to thank you, Mr. Chairman, for your 
past support. Your continued support is critical to our ability 
to meet the technically demanding and vital national challenges 
we face today and in the future.
    [The prepared statement of Dr. Stroh follows:]

   Prepared Statement of Dr. Kenneth R. Stroh, Materials Science and 
          Technology Division, Los Alamos National Laboratory

                              INTRODUCTION

    Thank you, Mr. Chairman and distinguished Members and Staff of the 
Energy and Natural Resources Committee, for the opportunity to submit 
this report on the status of our Hydrogen & Fuel Cells Program at Los 
Alamos National Laboratory. I am Ken Stroh, and I've worked at Los 
Alamos National Laboratory for nearly 25 years on energy systems 
design, analysis and testing. For the last 10 years my focus has been 
on fuel cells, and I currently manage the lab-wide efforts on hydrogen, 
fuel cells and vehicle technologies for the Laboratory's Energy and 
Sustainable Systems Program Office.
    Since 1977, the Laboratory has been performing leading-edge 
research on polymer electrolyte membrane, or PEM, fuel cells and 
supporting technologies, with primary funding from the U.S. Department 
of Energy (DOE). Fuel cells directly convert the chemical energy in a 
fuel to electricity, with higher efficiency and reduced environmental 
impacts compared to fuel combustion and energy conversion in 
conventional engines or turbines. These highly efficient power 
conversion systems are fueled by hydrogen, and have emissions of 
greenhouse gases and criteria pollutants that can approach zero when 
the hydrogen is made from renewable sources. Hydrogen can be derived 
from an array of diverse, domestic energy sources, adding to our energy 
security. A companion technology, the electrolyzer, works like a fuel 
cell in reverse, taking electricity and pure water and liberating 
hydrogen. Systems coupling an electrolyzer, hydrogen storage and fuel 
cells, if they can be made economical and durable, enable intermittent 
renewable energy sources, such as the sun and wind, to drive systems 
that dispatch power on demand. Such systems could be ideal for off-grid 
power in remote locations, and would be emission-free and sustainable.
    The National Vision of the U.S. Hydrogen Economy recently developed 
by stakeholders and the Department of Energy is compelling--``Hydrogen 
is America's clean energy choice. It is flexible, affordable, safe, 
domestically produced, used in all sectors of the economy, and in all 
regions of the country.'' Fuel cells are an enabling technology for 
achieving this vision.
    The Hydrogen & Fuel Cells Program at Los Alamos, which supports the 
Laboratory's mission in the area of solving ``. . . national problems 
in energy, environment, infrastructure and health security,'' has 
helped advance these technologies to the point where they can be 
considered for broad application to our power needs, for applications 
ranging from cell phones, laptop computers and portable electronics, to 
combined heat and power for residential, commercial and industrial 
buildings, to transportation. In this testimony I will provide an 
overview of accomplishments to date, the status of the program, and 
challenges for the future.

                     BACKGROUND AND ACCOMPLISHMENTS

    The focus of the Los Alamos effort over many years has been on pre-
competitive fundamental research that enables knowledge-based 
innovation. For example, a key breakthrough enabled low-temperature 
fuel cells to rapidly evolve from high-cost hardware for the manned 
space program into a potentially viable commercial power system. The 
development at Los Alamos of thin-film electrode technology reduced the 
required precious-metal catalyst loading by a factor of 30 or more, 
while simultaneously improving performance. This technology is nearly 
universally used, and one major fuel cell component supplier even uses 
the trade name ELAT, which stand for ``electrode Los Alamos type.''
    Collaboration with industry has been a characteristic of the Los 
Alamos program from the earliest days. In a recent letter to the 
Department of Energy, the Co-Director of General Motors' Global 
Alternative Propulsion Center stated, ``General Motors and Los Alamos 
have a long and successful history working together to research and 
develop fuel cells for automobiles. This collaboration, supported by 
the Department of Energy, serves as the technical foundation for the 
intensive development effort in fuel cells at General Motors today.'' 
Many key players in the emerging domestic fuel cell industry trained or 
worked in the Los Alamos program. And, many of the first tests of pre-
commercial products developed by these companies were performed at the 
Laboratory.
    Use of hydrogen derived from reformed fossil fuels is a likely 
transition strategy to the ultimate renewable hydrogen economy, and Los 
Alamos has greatly improved low-temperature fuel cell impurity 
tolerance and developed key fuel-processing cleanup technology. Los 
Alamos used these technologies in a collaborative effort with industry 
leading to the world's first demonstration of electricity production in 
a polymer electrolyte membrane fuel cell system fueled by gasoline. 
Participating team members were awarded the 1997 Partnership for a New 
Generation of Vehicles Medal for Government-Industry Teamwork.
    Fuel cells offer the potential of battery replacements and portable 
power systems that can be readily refueled, featuring high energy 
density, high reliability, low noise, and low vibration. Applications 
range from consumer electronics to power supplies for the defense and 
intelligence communities. However, hydrogen supply can be an issue for 
small systems. A variation of the hydrogen systems I've been discussing 
uses dilute methanol (commonly known as wood alcohol) as the hydrogen 
carrier. Methanol offers a high-density hydrogen storage medium, and 
can be used as a liquid fuel in the Direct Methanol Fuel Cell, or DMFC. 
In 2000, Los Alamos, in collaboration with Ball Aerospace, demonstrated 
a complete, stand-alone direct methanol power system for the Defense 
Advanced Research Projects Agency (DARPA) and the DOE.
    In January 2001, the Los Alamos Fuel Cells for Transportation 
Program was selected for the Energy 100--a list of the 100 ``finest 
scientific accomplishments'' in the history of the Department of 
Energy. That list was then given to a distinguished Citizen Judges 
panel which further selected the Los Alamos effort for an Energy @ 23 
Award, honoring those efforts in the 23 years of the Department that 
best ``. . . demonstrated benefits to the American public, a 
contribution to U.S. competitiveness in the global marketplace and the 
potential for significant future growth.''

                                 STATUS

    Although the promise of a sustainable, clean energy future based on 
renewable hydrogen and fuel cells is compelling, many technical 
barriers remain the realizing that vision. State-of-the-art fuel cells 
are still too expensive, even considering cost savings from mass 
production, and are still too large, heavy and fragile for widespread 
application. Hydrogen generation and storage present additional 
challenges. Continuing contraction of the fledgling fuel cell industry 
and layoffs among the survivors demonstrate that the technology, though 
promising, is not yet commercially viable.
    Los Alamos conducts a broad ranging fundamental research and 
development program for the Department of Energy's Office of Energy 
Efficiency and Renewable Energy aimed at the necessary cost reduction, 
performance improvement, and durability enhancement. We receive 
additional funding in focused areas from the DOE's Office of Science 
and Office of Fossil Energy, from DARPA, and directly from industry 
(DOE's Office of Fossil Energy is developing a high-temperature fuel 
cell technology in parallel with the PEM effort noted here, that may be 
able to use hydrocarbon-derived fuels more efficiently--these systems 
may find technical and market advantages in stationary systems).
    Today, a focus of the Department's technology development efforts 
is the Freedom Cooperative Automotive Research, or FreedomCAR, 
initiative. The transportation sector has been targeted not only 
because it represents about one-third of U.S. energy use and is 
responsible for about one-third of the domestic greenhouse gas 
emissions and the majority of urban pollution, but also because nearly 
all oil consumed in this country is used to move people and goods. And, 
the developing world will continue to demand increased mobility and 
ever increasing numbers of vehicles, with global implications for fuel 
use and pollution. The FreedomCAR goal is to develop hydrogen and fuel 
cell technologies that can enable affordable full-function cars and 
trucks that offer freedom from dependence on foreign oil, freedom from 
harmful emissions, freedom of mobility, and freedom of vehicle choice, 
all without sacrificing safety. I represent the Laboratory as one of 
two non-industry members on the FreedomCAR Fuel Cell Technology Team. 
This team, acting under the umbrella of the United States Council for 
Automotive Research, or USCAR, provides technical comment and industry 
perspective to the Department's technology targets and research and 
development approach through monthly review meetings.
    An independent panel representing industry and academia also 
reviews the Department's research and development program annually. One 
comment on the Los Alamos program, from the June 2000 Merit and Peer 
Evaluation noted: ``This effort is doing exactly what the national labs 
should be doing: leading the way and sharing knowledge.''
    Cooperative Research and Development Agreements with industry, 
known as CRADAs, provide both technology transfer to industry and 
further insight into barriers to commercialization that helps catalyze 
the innovation that will lead to the next generation of fuel cell and 
supporting technologies. The Los Alamos fuel cell effort has CRADAs 
with U.S. industrial partners ranging from portable electronics 
manufacturers to fuel cell developers to hydrogen generation developers 
to filtration companies. Current CRADA partners include Motorola, 
DuPont, and the Donaldson Corporation.

                                 FUTURE

    The President's budget request for Fiscal Year 2003 contains 
language to ``Initiate establishment of a Fuel Cell National Resource 
Center at Los Alamos National Laboratory to provide national focus and 
an integrated approach to addressing technical barriers to polymer 
electrolyte membrane fuel cell commercialization. This will be a 
national user facility for research, development and testing.'' While 
the details of the National Resource Center's work scope, operations 
and funding requirements are still being determined, we believe the 
Center will focus on close collaboration with industry, universities 
and other national laboratories, and will perform fundamental research 
to enable the next generation of fuel cells and related technologies 
that have reduced cost, higher performance and increased durability. 
The Center will also provide resources in the form of access to the 
existing knowledge base, access to experts in the field, and access to 
state-of-the-art experimental and analytical capabilities. Ford Motor 
Company, General Motors and others have written letters to the 
Department of Energy supporting establishment of this National Resource 
Center at Los Alamos National Laboratory.
    Our existing research and development program is housed in eight 
separate buildings spread across the Laboratory site. Our main activity 
is housed in a building that is over 50 years old and all facilities 
are crowded and inadequate for even the current program, let alone an 
enhanced national role. Working with our program sponsors in the Office 
of Energy Efficiency and Renewable Energy, we are studying the 
possibility of constructing a new building to house the Fuel Cell 
National Resource Center. We are currently developing the pre-
conceptual design and program information to request a Critical 
Decision-0 (CD-0), Justification of Mission Need, at the end of this 
fiscal year. If CD-0 is approved and funding obtained, we hope to 
perform the conceptual design work in Fiscal Year 2003. The conceptual 
design work in 2003 would lead to a request for Critical Decision-1. If 
CD-1 is subsequently approved and funds appropriated, the Laboratory 
could be in a position to let a design-build contract as early as 
Fiscal Year 2004.
    If we do get the opportunity to put up a building for the Fuel Cell 
National Resource Center, it is the Laboratory's intent to use this 
facility as a pilot project in sustainable building design. Besides 
designing a safe, worker friendly environment where productivity is 
enhanced, we intend to demonstrate energy efficiency and advanced 
technology taking guidance from the U.S. Green Building Council's 
Leadership in Energy and Environmental Design, or LEED, criteria and 
the 21st Century Laboratories initiative of the Environmental 
Protection Agency and the DOE's Federal Energy Management Program. 
Experience shows that this whole-building design approach can deliver 
comparable first costs and much reduced life-cycle costs.
    The Laboratory has identified a very visible and open-access 
building site, where visitors can see energy efficiency and advanced 
renewable technologies actually being used. This site is also adjacent 
to the Los Alamos Research Park where we expect industrial 
collaborators would establish local offices. We intend to make all 
hydrogen required for our research with electrolyzers and hope to 
provide the electrolyzers with electricity from a photovoltaic array, 
thereby demonstrating the zero-emissions renewable solar hydrogen 
cycle. We will consider providing building combined heat and power from 
a fuel cell power plant running off natural gas. Regardless of 
technology and features included, we intend to instrument the building 
as a living laboratory, where we can quantify the benefits to sponsors, 
visitors, and the building community. If the budget allows, we'd also 
like to provide a hydrogen fueling system and electric charging station 
for government fleet testing of fuel cell and electric vehicles.

                               CONCLUSION

    For more than twenty years, Los Alamos has developed the 
fundamental knowledge and technology innovations enabling the current 
generation of low-temperature fuel cells. This technology, if it can be 
made affordable and durable, could enable a truly sustainable energy 
future that is both emissions free and that conserves non-renewable 
resources. Our country faces ongoing and new challenges in energy, 
environmental and economic security. Our Laboratory is committed to 
meeting these challenges for our nation and the world.
    In conclusion, I would like to thank you for your past support. 
Your continued support is critical to our ability to meet the 
technically demanding and vital national challenges we face today and 
in the future.

    The Chairman. Thank you very much.
    Mark, why don't you go ahead with your testimony.

    STATEMENT OF DR. MARK HAMPDEN-SMITH, DIRECTOR AND VICE 
                PRESIDENT, SUPERIOR MICROPOWDERS

    Dr. Hampden-Smith. Thank you. Good morning.
    Senator Bingaman, thank you for this opportunity to speak 
before the committee this morning.
    The goal of this presentation is to give a brief overview 
of fuel cells and their applications in general, and then focus 
on the specific potential of methanol fuel cells for use in 
remote applications of portable power.
    Superior MicroPowders, or SMP as we call ourselves, is a 
New Mexico-based business that is providing high-performance 
materials for a number of energy-efficient market applications, 
including the fuel cell, display and lighting industries. In 
the fuel cell area, SMP is providing complete materials 
solutions, including fuel processor catalysts, as well as fuel 
cell stack electrocatalysts and electrode technology. More 
information on our products and our strategic relationships is 
available on our website.
    SMP has been working with Motorola Labs in the development 
of materials for methanol-fueled fuel cells. Motorola is a 
leading developer of methanol-fueled fuel cell systems and the 
leading U.S. manufacturer of portable electronic devices. 
Motorola Labs previously demonstrated an early prototype 
methanol-fueled fuel cell two-way radio battery charger to 
Senator Bingaman on a recent visit to SMP.
    Fuel cells are one type of a number of alternative energy 
technologies that have the potential to make a significant 
economic, strategic and environmental impact on our Nation and 
on the rest of the world. Fuel cells convert a fuel, such as 
hydrogen or hydrocarbons, and oxygen from air into water and 
electricity. The applications for fuel cells are generally 
divided into three categories: transportation applications, 
stationary applications and small portable applications.
    The use of fuel cells for transportation and stationary 
applications can have a significant environmental impact by 
avoiding the generation of environmentally unfriendly gases 
produced from traditional power sources. While a potential 
distributed fuel infrastructure exists for stationary 
applications; namely, natural gas, the fuel infrastructure 
remains an important issue to be resolved, particularly in 
transportation applications.
    A source of hydrogen that is not derived from fossil fuels 
is desirable. An excellent source of hydrogen could be water, 
in which case, noxious carbon-containing gases and gaseous by-
products would be completely avoided. There would, therefore, 
be an environmental impact and a strategic impact due to the 
reduced dependency on foreign resources of fossil fuels; 
however, there is a great deal of technical development 
required to make this vision a cost-effective reality, which 
includes not only the development of fuel cell stacks and 
systems architecture, but also fuel-reforming, fueling 
infrastructure, safety, permitting, legislative issues and, 
most likely, an integrated technology strategy to renewable 
energy.
    As a result, there are numerous government and State-funded 
programs focused on the development of fuel cells for 
transportation and stationary applications, and there are 
numerous demonstration programs to demonstrate this technology 
and educate the public. Our colleagues at MesoFuel, who are 
developing fuel-processing technology, will provide more 
information on the logistics of hydrogen use.
    Fuel cells designed for small portable applications are in 
a somewhat different situation. Here, small portable fuel cells 
will be used to provide power for portable electronic devices, 
such as communications devices, including two-way radios, cell 
phones, personal data assistants and portable computers. In 
this market segment, the competing technology is battery 
technology, mainly secondary or rechargeable batteries. There 
are a number of compelling reasons for utilizing fuel cells for 
these applications.
    From the consumer standpoint, future portable consumer 
electronic devices are expected to combine multiple functions, 
such as wireless voice and data communication, as well as 
computing. Current studies indicate that the power requirements 
of these devices will not adequately be met by current or 
projected rechargeable battery technologies.
    From an environmental standpoint, the fuel cell could be 
used many times over by refueling it, and does not contain 
environmentally-toxic materials, unlike its battery 
counterparts, such as lithium ion or nickel cadmium batteries.
    Logistically, fuel cells are attractive because they can be 
instantly recharged by adding a new fuel canister, and 
therefore avoiding the recharging time and carrying extra 
rechargeable batteries.
    Furthermore, the ability to operate the electronic device 
remotely from the grid, because the grid is not required to 
recharge a battery, is, we believe, of considerable strategic 
value in certain applications, especially in the military and 
emergency service.
    Finally, from a national economic benefit and strategic 
performance viewpoint, there is a strong driver for U.S.-based 
companies to take the lead in technology commercialization for 
portable power, a market currently dominated by foreign, mostly 
Asian, companies.
    For small portable fuel cells, the fuel is, again, an 
important issue that must be addressed. Hydrogen is the best 
candidate from an environmental point of view, but is currently 
not practical due to the lack of high-energy density storage 
technologies for hydrogen; a similar issue exists in automotive 
applications of fuel cells.
    Currently, methanol appears to be the most viable candidate 
due to its high energy density, its availability, and the 
technical success in operating fuel cells, either directly on 
methanol, or on a reformed methanol fuel feed. These factors 
mitigate some fueling issues; therefore, we view this area as a 
likely early market entry for fuel cells in general.
    Government support for the development of small portable 
fuel cells has been mainly focused on strategic applications of 
small portable fuel cells for military purposes and so funded, 
primarily, by the Department of Defense. NIST has also 
addressed dual-use aspects of portable fuel cells with a few 
programs. Indeed, SMP has recently received two NIST ATP 
awards, with Motorola and others as subcontractors, as well as 
a DOE award for the discovery and development of automotive 
fuel cell stack materials.
    Motorola is funded through the Army Research Lab's 
Cooperative Technology Alliance program to develop technology 
for methanol-based portable fuel cells; however, there are 
currently no methanol-fueled fuel cell demonstration programs 
with significant scope, to our knowledge. The near-term 
commercial potential of small portable fuel cells would be 
significantly enhanced by a well-supported demonstration 
program.
    In the introduction of a broadly impacting new technology, 
technology demonstration programs are critical to success for 
both the technology developer, the end user, and for public 
education. The State of New Mexico is well-positioned to play a 
leading role in the development and demonstration of small 
portable fuel cell technology due to the presence of technology 
leaders in the State, including the national labs and a number 
of small businesses, a customer base with a strong need and 
political leadership that understands the issues involved.
    We can envision a focused demonstration of portable 
methanol-fueled fuel cell battery chargers for two-way radios, 
with a customer vehicle such as forest fire fighters in New 
Mexico. This customer set clearly has strategic interest to the 
State.
    Superior MicroPowders has a leadership position in fuel 
cell materials technology development and Motorola has a 
leadership position in fuel cell system technology and 
commercialization and the Forest Service currently uses 
Motorola two-way radios and communication systems. It is 
envisioned that a demonstration program such as this will 
provide a valuable starting point for a large and nationwide 
developmental effort probably best administered by the 
Department of Energy. The execution of a demonstration program 
is an important step to better understand the performance 
requirements, packaging and demographics of device operation, 
as well as understand the logistics of a totally new way to 
recharge by refueling a portable electric power device.
    The value of small methanol fuel cells in forestry 
applications is as follows: The rechargeable batteries used in 
the existing two-way radios last 8 to 10 hours between 
charging. In a remote location, where the electric grid is not 
available and transporting a traditional electricity generator 
is cumbersome or impractical, the rechargeable nature of the 
battery becomes useless. The alternative is to carry numerous 
disposable, or primary, batteries, or use rechargeable 
batteries once; therefore, the first target application for a 
small methanol fuel cell will be a charger that can recharge 
the battery and require relatively small volumes of methanol to 
be carried, rather than numerous batteries.
    The development of a small portable fuel cell battery 
charger avoids the need for complex interfacing between the 
fuel cell and the two-way radio if the fuel cell were to be 
used to power the two-way radio directly.
    The same concept applies to a wide variety of other remote 
applications for portable power, including military 
applications, such as homeland security or remote special 
forces activities, emergency services, the construction 
industry and hospitality services, amongst others. Lessons 
learned are likely to be applicable to other fuel cell 
applications.
    So in conclusion, we feel there is an excellent opportunity 
for New Mexico to play a leading role in the demonstration of 
methanol-fueled fuel cells for remote applications of portable 
power through the presence of technology leaders, a strong 
customer base, and a strategic need.
    Thank you for the opportunity to provide this testimony 
before the committee.
    The Chairman. Thank you very much.
    Dr. Godshall, you're the final witness here. We're 
interested to hear from you.

      STATEMENT OF DR. NED GODSHALL, CEO, MESOFUEL, INC., 
                        ALBUQUERQUE, NM

    Dr. Godshell. Thank you, Mr. Chairman, for letting me be 
the clean-up batter here. Seriously, we're quite honored to be 
here, so thank you.
    I'll start off my remarks this morning, not by repeating 
the excellent points made by others here this morning about 
fuel cells, by my esteemed colleagues, Drs. Moorer, Stroh and 
Hampden-Smith, but rather first touching on a point that is not 
as often appreciated in our national debate on energy; that is, 
in addition to the obviously important topic of how much energy 
we have, we also need to consider the quality of that energy, 
specifically the fact that electrical energy is more valuable 
to us than the same amount of energy expressed in terms of 
heat.
    Without getting into the arcane topics of thermal mechanics 
and entropy, which I'm sure would bore everybody here in the 
room this morning, what this means is that by electrochemically 
extracting the energy from our limited fossil fuels, rather 
than burning it, as we now do almost exclusively, we can 
extract far more useful energy from every barrel of oil that we 
either import or produce ourselves, or indeed, as we're now 
doing, using soybeans that are grown in the heartland of 
America to produce that same amount of energy.
    As Senator Bingaman previously pointed out this morning, 
fuel cells have existed for 40 years. They were a key component 
of America's space program in the 1960's and 1970's. Fuel cell 
technology and products are available today. The single largest 
impediment to their use, in the advent of a widespread energy 
economy based on hydrogen, we believe, however, is the 
surprisingly simple problem of distribution of the fuel to the 
fuel cell; distribution, not of the fuel cells themselves, in 
other words, but rather, distribution of the fuel, the hydrogen 
itself, as was discussed previously by Mark.
    By analogy, imagine that no gas stations existed with which 
to fuel our cars today. In that scenario, the economic problems 
faced by Detroit in selling new cars would not be the cost of 
the cars themselves, but rather, the unrealistically high cost 
of having a gasoline tank truck come to your house every 
morning to put gas in your car.
    The new beneficial technology of the car would therefore 
never have seen the economic light of day in that scenario of 
having no gas stations on the corner. We believe that the same 
is true for fuel cells at the present time. The problem in the 
case of hydrogen-fueled fuel cells, is the lack of low-cost 
distributed fuel; that is, the hydrogen, not the fuel cells 
themselves.
    Some other technical and economical problems still exist, 
as has been alluded to by Dr. Mark Hampden-Smith, our colleague 
here at SMP, to be sure, but primarily is one of somewhat 
higher cost than desired by the marketplace is the cost of the 
expensive metal catalysts, but that economic problem is being 
addressed by SMP, Los Alamos and Sandia, represented here this 
morning. It is, therefore our belief that the primary economic 
barrier to widespread fuel cell use in the emerging energy 
economy is not the remaining cost issues with the fuel cells 
themselves, but the lack of distributed hydrogen.
    MesoFuel is a small company based here in Albuquerque. 
We're focused on solving these remaining last hurdles in low-
cost, on-site, on-demand generation of hydrogen when and where 
consumers need it. In this manner, we believe that we can be 
instrumental in enabling the U.S.'s transition to a hydrogen-
based economy that is both more sustainable and environmentally 
sound, as opposed to the current hydrocarbon-based energy 
economy we live in today.
    We do this by using new proprietary micro-scale technology 
to chemically convert conventional and some exciting new 
alternative fuels, as I mentioned, for example, soybeans, 
directly into hydrogen in small new products called hydrogen 
generators. We are looking to introduce those products later 
this year.
    The output of our products are, therefore, pure hydrogen 
gas that can be supplied directly to the fuel cells to generate 
electricity and water. Our hydrogen generator prototypes 
generate hydrogens from conventional fuels, such as natural 
gas, propane and butane, and as I mentioned, alternative fuels, 
as well. We also plan to introduce products, early next year, 
that will generate hydrogen from gasoline, diesel, kerosene, 
jet fuel and other heavier hydrocarbons.
    Most exciting to us, as I've alluded to, however, is our 
current research which shows that we will be able to generate 
hydrogen from sustainable renewable alternative fuels, such as 
the oils extracted from soybeans and other crops grown, as I 
said, in America's heartland. Each barrel of such oil is a 
barrel of oil that is not imported from politically unstable 
foreign markets.
    Using our new meso-scale technology, we produce large 
amounts of hydrogen gas from a relatively small product volume. 
The core reactor of our first initial product is shown here. 
It's no bigger than the size of a stack of business cards.
    Combined with the inherently greater efficiency of fuel 
cell technology, this process will produce much greater amounts 
of electrical energy from a given quantity of hydrocarbon fuels 
than current combustion processes. Our prototype for portable 
applications is not much bigger, as I said, than a stack of 
business cards, and our hydrogen generator for stationary 
residential applications fits in about the size of a cubic box 
about one foot on a side.
    Coupled with an integrated fuel cell of equivalent 2-
kilowatt power, such a system is projected to be the size of 
about that of a dishwasher, and can supply an average home with 
both its electrical and hot water needs.
    MesoFuel's on-demand, on-site generation of hydrogen also 
innately solves another postulated problem with the emerging 
hydrogen economy, and that is one of safety. Competing 
technologies for distributing large amounts of hydrogen to 
local fuel cells requires large amounts of hydrogen storage at 
those fuel cell sites, whether that be portable, stationary or 
automotive applications, as discussed earlier by Mr. Moorer.
    Such storage mechanisms include high-pressure-compressed 
gases and extremely cold liquefied hydrogen. Both of these can 
pose, however, significant problems should the storage 
container be ruptured or malfunction during fueling, especially 
for those automotive applications. MesoFuel's business model, 
however, is to generate the hydrogen on site only in the 
amounts immediately required by the fuel cell or other 
application. In this manner, no storage of hydrogen is 
necessary, and the safety concerns, we believe, are 
significantly reduced.
    Additional advantages of the integrated hydrogen generator 
fuel cell combination are, one, both technologies have 
virtually no moving parts and generate no or little noise. 
These advantages have led to keen interest, as Mark mentioned, 
by both U.S. military and commercial entities desiring either 
primary or backup power in a distributed environment;
    Two, distributed power also now carries a homeland security 
component with it, since many sites around the country 
producing smaller amounts of electrical power will have obvious 
advantages over a few centralized sites producing large amounts 
of power, by being not as vulnerable to targeted threats;
    Three, unlike batteries, again, as Mark said, the system 
requires neither recharging, costly maintenance nor replacement 
when the chemicals inside the batteries are depleted;
    And lastly, four, MesoFuel's technology produces no nitrous 
oxide components, nitrogen oxides. Not only does our technology 
operate at a far lower temperature than combustion processes 
that produce such noxious pollutants, but our particular method 
of generating hydrogen uses water, interestingly, rather than 
air, which completely eliminates the source of nitrogen from 
which these nitrogen oxides are produced.
    I might also just mention that MesoFuel's technology is 
really part of a larger effort here in New Mexico in the 
exciting area, realm of technology in general known as 
microsystems or meso-scale technology. And again, even though 
he didn't speak on it earlier, Dr. Al Romig, I think, 
represents that embodiment of that new effort here at Sandia 
National Laboratories, and it is rather quite exciting for the 
State of New Mexico.
    Microsystems technology refers to a size scale that's only 
about the width of one to ten human hair diameters, and 
although this is smaller than products made by conventional 
machining that is current technology, it is actually larger 
than the size scale found in today's microelectronic chips; for 
example, at Intel.
    This size scale and the ability to produce products in this 
fundamental characteristic operating size range has, 
nevertheless, been largely overlooked until now, we believe. 
MesoFuel and its parent company, MesoSystems, along with New 
Mexico's two national laboratories, as I said, are leading the 
Nation in this technology and the novel products that are now 
possible from it. MesoFuel's especially focused on applying 
this new meso-scale technology to miniaturizing hydrogen 
generation for the distributed power applications we've 
discussed here this morning.
    In summary, MesoFuel believes that we can make a big impact 
on the way the Nation meets its future energy needs. Even 
though we are a very small company, we have lofty goals. Thank 
you for this opportunity, Mr. Chairman, to testify before the 
Senate Committee on Energy and National Resources and for 
soliciting our input and that of my esteemed colleagues here 
today.
    [The prepared statement of Dr. Godshall follows:]

     Prepared Statement of Dr. Ned Godshall, CEO, MesoFuel, Inc., 
                            Albuquerque, NM

    Dear Chairman Bingaman:
    Thank you for this opportunity to speak before the Committee's 
field hearing this morning.
    As you know, there has been great renewed interest recently in the 
subject of fuel cells and the role that the ``hydrogen economy'' can 
play in reformulating the way we procure and use energy in the United 
States. Hydrogen is the most abundant element on earth. However, the 
majority of this hydrogen carries with it no inherent energy content, 
because it is chemically combined with oxygen in the form of water. 
That is, water may be thought of not in its usual way, but as ``the 
fully oxidized form of hydrogen''. And because the hydrogen is fully 
oxidized, we cannot ``burn'' it further or extract any energy from it. 
So let us picture water as one extreme end of a continuum of hydrogen-
containing compounds that contain more or less inherent energy.
      

                          The Energy Continuum

                        Energy Content <r-arrow>

   Low ________________________________________________________ High

             Water (H<INF>2</INF>O)          Hydrocarbons 
     (C<INF>x</INF>H<INF>y</INF>)          Hydrogen (H<INF>2</INF>)

      
    Fortunately for us, not all hydrogen-containing compounds are fully 
oxidized. The very large class of materials known as ``hydrocarbons'' 
represent a form of hydrogen that is chemically combined with carbon. 
Hydrocarbons have sizable energy content, although not the maximum 
possible, since some of the hydrogen atoms' inherent energy is tied up 
with the carbon atoms. Hydrocarbons include not only the fossil fuels 
that we extract from the ground throughout the U.S. and the world--
crude oil, coal, natural gas (and the things refined from them: 
gasoline, diesel, jet fuel, home heating oil, etc.)--but they also 
represent the basis of the foods we eat--sugars, carbohydrates, etc. In 
both cases, fuels and food, we ``burn'' these hydrocarbons in oxygen 
(air) to extract their remaining inherent energy content to benefit us.
    Let us then contemplate the other extreme end of the above ``Energy 
Continuum''--the case where hydrogen has not given up any of its 
inherent energy to other atoms chemically tied to it. This case is 
simply that of pure hydrogen--a gas (at room temperature and pressure) 
that when reacted with oxygen releases an immense amount of energy. It 
is this energy that is the focus of the current popular discussion 
about the ``hydrogen economy''--not the hydrogen per se. When combined 
with oxygen to form water, hydrogen represents the ideal scenario for a 
fundamentally improved energy policy for America, since it represents:

  <bullet> The largest amount of energy in the above Energy Continuum
  <bullet> The simplest and cleanest carrier (fuel) of that energy
  <bullet> The lowest pollution burden (only pure water is produced)

                  THE PRESENT: BURNING OF FOSSIL FUELS

    Most of the world's present energy is obtained from burning 
hydrocarbons--the ``middle ground'' in the above Energy Continuum. This 
has successfully led the United States and the other industrialized 
countries through the industrial revolution of the 19th and 20th 
centuries, but it now poses problems for the economic growth of both 
the under-developed countries as well as our continued growth and 
energy needs. Foremost among these problems is that of environmental 
pollution. Not only does the burning of hydrocarbons represent less 
than the optimal amount of energy possible on the above Energy 
Continuum, but it also contributes to ``global warming'', since the 
``carbon half'' of the hydrocarbon is turned into carbon monoxide and 
carbon dioxide during the burning process. To make matters worse, some 
of the nitrogen present (from the air) during such burning of fossil 
fuels leads to harmful nitrogen oxides. Similarly, sulfur present 
naturally in many fossil fuels is also oxidized during such burning, 
and directly leads to ``acid rain''.

               THE FUTURE: DIRECT CONVERSION OF HYDROGEN

    The reaction of pure hydrogen with oxygen, however, results in none 
of these environmental problems. The only byproduct (pollutant) of the 
reaction that need be produced is pure water. Changing the country's 
energy policy to one based on a ``hydrogen economy'' would therefore 
not only result in a greater amount of useable energy than the 
equivalent amount of hydrogen in the fossil fuel hydrocarbons that we 
extract from the ground, but would also greatly reduce the 
environmental burden associated with our energy use.
                         the quality of energy
    A critical point that is often overlooked in the present debate is 
the quality of the energy that is produced in both scenarios. 
Presently, the first thing that we do with nearly all fossil fuels 
extracted from the ground is that we burn them. This burning process 
extracts the inherent energy in the fuel--but it unfortunately does so 
in a manner that represents the lowest possible form of that energy--
heat. Imagine another continuum, this time one describing the quality 
of energy, rather than the amount of energy:

                      The Energy Quality Continuum

                        Energy Content <r-arrow>

   Low ________________________________________________________ High

            Heat             Motion             Electricity

      
    Electricity represents the highest form of a given amount of 
energy; heat, the lowest form of that same amount of energy. The motion 
of, say, a car or a vacuum cleaner motor represents an intermediate 
form of that same amount of energy. A quick illustration will 
demonstrate the point that the same amount of energy has different 
``qualities'' associated with it: we know that in our homes we can turn 
on our electric stove tops and convert electricity from our local power 
company into heat by boiling a pan of water. However, the converse is 
not true--we cannot take that same energy (in the boiling water) and 
easily convert it back into electricity to power our vacuum cleaner. 
Any energy generation process is therefore far more useful if it 
directly results in electricity rather than heat.
    Fuel cells powered by hydrogen do just that--they directly convert 
the energy content inherent in the hydrogen fuel into electricity. They 
do not burn it, as we presently do with 99% of all fossil fuels 
extracted from the ground for energy use today. Stated differently, 
even if the above-described benefit of a future ``hydrogen economy'' 
over our present ``hydrocarbon economy'' did not exist--just this 
``direct conversion to electrical energy'' point alone could represent 
huge cost savings and reduced foreign oil imports over the present 
situation. Presently, we burn fossil fuels in our cars and our homes 
and most of our power plants. By doing so, we immediately reduce the 
fuel's inherent energy content to its lowest form. Then, we are forced 
to extract back only a small fraction of that energy in relatively 
inefficient mechanical devices, such as the engines in our cars and 
generators in our power plants.
    A car, for example, utilizes only about 15% of the inherent energy 
in the gasoline with which we fuel it. That is because we burn 100% of 
it immediately, reducing the gasoline to its lowest possible form--and 
then we convert about 15% of that heat back into motion through the 
pistons in the engine to make our cars go down the road. The remaining 
85% of the energy is lost as heat, which is why we need the radiators 
in our cars to cool the engine from all the lost heat. A fuel cell 
powered car, conversely, directly converts the fuel's inherent energy 
into electricity without burning it and without this innate degradation 
of the energy. This direct conversion to electrical energy could 
represent huge cost savings and reduce foreign oil imports over the 
present situation. Even just a 5% increase in the country's energy 
efficiency through such direct energy generation would represent 
millions of barrels of oil that need not be imported.

                         SO WHAT'S THE PROBLEM?

    So here we have a great new technology: hydrogen--a simpler form of 
energy with a higher energy content than an equivalent amount of 
hydrocarbons, one that can be easily converted into a higher and more 
efficient form of that energy (electricity) when coupled with a fuel 
cell, and one that has virtually no pollution or environmental 
drawbacks! So what's the problem? Why is it not here already?
    The problem, as with any new technology, is economics. Technology 
does not a business make. Until the economics of fuel cells and the 
hydrogen economy become cost competitive with the present hydrocarbon 
economy, these technologies will remain only intellectual curiosities 
and research laboratory pursuits.
    Fuel cells have existed for 40 years. They were a key component of 
America's space program in the 1960s and 1970s. Fuel cell technology 
and products are widely available today. The single largest impediment 
to their use, and the advent of a widespread energy economy based on 
hydrogen, we believe, is the surprisingly simple problem of 
distribution. Distribution not of the fuel cells themselves, but rather 
distribution of the fuel--the hydrogen itself.
    By analogy, imagine that no gas stations existed with which to fuel 
our cars. In that scenario, the economic problems faced by Detroit in 
selling cars would not be the cost of the cars themselves, but rather 
the unrealistically high cost of having a gasoline tank truck come to 
one's home each time the car's gas tank ran empty. The new beneficial 
technology of the car would never have seen the economic light of day 
in that scenario. We believe that the same is true for fuel cells at 
the present time. The problem in the case of hydrogen-fueled fuel cells 
is the lack of low-cost distributed fuel--hydrogen--not the fuel cells 
themselves.
    Some other technical and economic problems still exist, to be sure, 
with widespread fuel cell sales and acceptance--primarily the one of 
somewhat higher cost than desired by the marketplace due to the cost of 
expensive metal catalysts. But that economic problem is being addressed 
and solved by fuel cell manufacturers and their suppliers, for example 
through the development of electrode micropowders that perform better 
while actually using much less of the expensive metals. One such 
important developer, Superior MicroPowders, is another local New Mexico 
company based here in Albuquerque, and another panelist here this 
morning, Dr. Mark Hampden-Smith, is SMP's V.P. and co-founder. These 
remaining fuel cell technical and cost hurdles are also being addressed 
and solved by New Mexico's two national laboratories, Sandia National 
Laboratories and Los Alamos National Laboratory, represented here also 
this morning by Drs. Al Romig and Ken Stroh, respectively.

                             MESOFUEL, INC.

    The primary economic barrier to widespread fuel cell use and the 
emerging hydrogen energy, therefore, is not the remaining cost issues 
with the fuel cells themselves, but the lack of distributed hydrogen. 
MesoFuel is focused on solving this remaining last hurdle--the low-
cost, on-site, on-demand generation of hydrogen when and where 
consumers need it. In this manner, we believe that we can be 
instrumental in enabling the U.S.'s transition to a hydrogen-based 
energy economy that is both more sustainable and environmentally sound.
    We do this by using new proprietary micro-scale technology to 
chemically convert conventional and alternative fuels directly into 
hydrogen in small new products, called Hydrogen Generators, that we are 
introducing later this year. The output of our products is pure 
hydrogen gas that can be supplied directly to the fuel cell to generate 
electricity and water. Our Hydrogen Generator prototypes generate 
hydrogen from conventional fuels such as natural gas, propane, and 
butane. We also plan to introduce products early next year that will 
generate hydrogen from gasoline, diesel, kerosene, and jet fuel. Most 
exciting to us, however, is our current research, which shows that we 
will also be able to generate hydrogen from sustainable, renewable, 
alternative fuels such as oils extracted from soy beans and other crops 
grown in America's heartland. Each barrel of such oil is a barrel of 
oil that is not imported from politically unstable foreign markets.
    Using our meso-scale proprietary technology, we produce large 
amounts of hydrogen gas from a small product volume. Combined with the 
inherently greater efficiency of the fuel cell technology, this process 
will produce much greater amounts of electrical energy from a given 
quantity of hydrocarbon fossil fuels than current combustion processes. 
Our prototype for portable applications is not much bigger than a stack 
of business cards, and our Hydrogen Generator for stationary/
residential applications fits in a cubic box about one foot on a side. 
Coupled with an integrated fuel cell of equivalent 2 kW power, such a 
system is projected to be the size of a dishwasher, and could supply an 
average home with both its electrical power and hot water needs.
    MesoFuel's on-demand, on-site generation of hydrogen also innately 
solves another postulated problem with the emerging hydrogen economy: 
safety. Competing technologies for distributing large amounts of 
hydrogen to local fuel cells require large amounts of hydrogen storage 
at the fuel cell site, whether that be portable, stationary, or 
automotive applications. Such storage mechanisms include high pressure 
compressed gases and extremely cold liquefied hydrogen. Both can pose 
significant safety problems should the storage containment be ruptured 
or malfunction during fueling, especially for automotive applications. 
MesoFuel's business model, however, is to generate the hydrogen on-site 
only in the amounts immediately required by the fuel cell or other 
application. In this manner, no storage of hydrogen is necessary, and 
the safety concerns are significantly reduced.
    Additional advantages of the integrated Hydrogen Generator/fuel 
cell are:

  <bullet> Both technologies have virtually no moving parts and 
        generate no noise. These advantages have led to keen interest 
        by both the U.S. military and commercial entities desiring 
        either primary or backup power in a distributed environment.
  <bullet> Distributed power also now carries a homeland security 
        component with it, since many sites around the country 
        producing smaller amounts of electrical power will have 
        advantages over a few centralized sites producing large amounts 
        of power, but vulnerable to targeted threats.
  <bullet> Unlike batteries, the system requires neither recharging, 
        costly maintenance, nor replacement when the chemicals inside 
        the batteries are depleted.
  <bullet> MesoFuel's technology produces no nitrous oxide pollutants 
        (NO<INF>X</INF>). Not only does our technology operate at a far 
        lower temperature than combustion processes that produce 
        NO<INF>X</INF> pollutants, but our particular method of 
        generating hydrogen uses water rather than air, which 
        completely eliminates the source of nitrogen from which 
        NO<INF>X</INF> is produced.

                        MICROSYSTEMS TECHNOLOGY

    MesoFuel's technology involves an exciting new realm of technology 
known, in general, as Microsystems (or meso-scale) technology. 
Microsystems technology refers to a size scale that is about the width 
of only 1 to 10 human hair diameters. Although this is smaller than 
products made by conventional machining, it is actually larger than the 
size scale found in today's microelectronic chips. This size scale, and 
the ability to make products in this fundamental characteristic 
operating size range, has nevertheless been largely overlooked until 
now. MesoFuel, and its parent company MesoSystems--along with New 
Mexico's two national laboratories--are leading the nation in this new 
technology and the novel products that are now possible from it. 
MesoFuel is specifically focused on applying this new mesoscale 
technology to miniaturizing hydrogen generation for distributed power 
applications.

           MESOFUEL'S RECOMMENDATIONS TO THE ENERGY COMMITTEE

  <bullet> The primary need is for hydrogen and hydrogen generation 
        technology, and the need for sustained and significant 
        investment in these issues by DoE. Most of the present research 
        and development money is going into fuel cells and fuel cells 
        cars, not hydrogen generation. Government investment in 
        hydrogen generation and hydrocarbon reforming will have a far 
        bigger impact on fuel cell adoption rates than additional funds 
        applied to either fuel cells or cars.
  <bullet> Long-term government tax relief incentives, such as those 
        used to support the wind power industry twenty years ago, would 
        support faster adoption of fuel cells and accelerate the 
        commercial viability of the industry.
  <bullet> Future U.S. energy policy should incentivize both the 
        private and public sectors towards significant clean air and 
        alternative/renewable energy economies. The reaction of 
        hydrogen with oxygen, especially when occurring 
        electrochemically in a fuel cell, represents the cleanest and 
        most environmentally benign process imaginable for intelligent 
        use of scarce natural and renewable resources. The prospect of 
        significantly reducing harmful nitrogen oxides, for example, 
        should be strongly encouraged in the 21st century. Similarly, 
        the prospect of reducing foreign oil imports through 
        incentivized development and use of renewable fuels such as soy 
        diesel, methanol, and ethanol to produce hydrogen should be 
        equally encouraged by U.S. energy policy.
    In summary, MesoFuel believes that we can help make a big impact on 
the way the nation meets its future energy needs. Thank you for this 
opportunity to testify before the Senate Committee on Energy and 
Natural Resources, and for soliciting our input and that of my esteemed 
colleagues here today.

    The Chairman. Well, thank all three of you for excellent 
testimony.
    Let me ask Dr. Stroh first, your--you say you are on the 
board that's involved with development of the FreedomCAR, as I 
understood your testimony.
    Dr. Stroh. I'm on the fuel cell technology team for 
FreedomCAR, yes.
    The Chairman. The fuel cell technology team. What is the 
time frame that is being considered there for actual 
development of a commercially available fuel cell-powered car?
    Dr. Stroh. The targets for complete market competitiveness 
are on the order of a decade. There are interim targets and 
there will be, you know, functionally appropriate products, 
that could go into Government fleet demonstrations and other 
fleet markets where you don't have to put in broad 
infrastructure because fleets have limited operating range and 
tend to have a centralized support, in much nearer-term.
    Some of the foreign companies are talking about leasing 
fuel cell vehicles to governments in the next year or two.
    The Chairman. And those fuel cell vehicles foreign 
companies are going to have available in the next year or two, 
how are they powered? What is the source of the hydrogen that--
--
    Dr. Stroh. Well, nearly all the vehicles that are out there 
in test situations, such as the California fuel cell 
partnership, are powered by direct hydrogen on board, either as 
compressed gas, or in some cases, stored on board as liquid 
hydrogen or in metal hydrides.
    There are a few vehicles out there with on-board reformers 
for--DaimlerChrysler has one with methanol. General Motors has 
one with gasoline, so there are vehicles of all types out 
there, but the vast majority of things you might see in the 
press releases are hydrogen vehicles.
    The Chairman. Let me try to get straight in my own head 
here the various applications that people have in mind for fuel 
cell technology.
    I think, Mark, you referred to it in your testimony as a 
transportation application, which is the FreedomCAR, and the 
various others that we just talked about; a stationary 
application where you would put a unit in a home, for example, 
that would provide power for the home; a third would be the 
small portable applications; and is there a fourth, or is 
that--are those the three that----
    Dr. Hampden-Smith. I think that covers it, yeah.
    The Chairman. I guess I'm concerned, from the little I know 
about this, that the priority that we have established by 
making this FreedomCAR the sort of flagship effort with regard 
to fuel cell development, the priority we've set is in that 
area, the transportation application, and that is the most 
difficult and the farthest in time from being actually 
feasible, and some of these other things are getting short 
shrift, which might actually produce much nearer-term results 
that would then help us in developing the FreedomCAR or other 
applications.
    Do you have any views on that, Dr. Stroh?
    Dr. Stroh. Yes, I do, and I'm sure my colleagues do, as 
well.
    You're right in that the transportation application is like 
doing the hardest problem first. In order to be in your 
vehicle--mine's parked outside--it's got to be cheap, light, 
small, put up with very little maintenance, operate in all 
kinds of environmental conditions, and rapid start-up, all 
those kinds of things. The thing is, if you can do that 
transportation application, all the other applications are 
available to you because their constraints are less.
    You can pay several times the dollars per kilowatt for 
stationary application that you can for transportation, but 
there are trade-offs there, too. You'd like a stationary 
application to last much longer than you would a transportation 
system, so there are different challenges in each application.
    The thing that's common, which I think argues against the 
idea that one application is getting the short end, is that the 
materials and the types of construction in all these devices 
are very similar, even comparing hydrogen fuel cells and liquid 
methanol fuel cells. The materials at the heart of the electric 
chemical conversion are the same, and in fact, the 
transportation program, under FreedomCAR, actually funds work 
at Los Alamos on few-watt direct methanol fuel cell systems 
because that may be one of the very earliest market 
applications, it may be the place the consumers first get used 
to relying on fuel cells and buying fuel cells. It maybe be the 
first applications that lead to mass production of the core 
material, and therefore, it is enabling for the transportation 
application.
    I think the reason that you see the bulk of the effort 
oriented toward transportation is that's where we use oil, and 
anybody that uses energy has issues with emissions and 
efficiency of the fuel source, but transportation, we use most 
of the oil we use in this country. And so I think it's 
reasonable for that to have a very high priority.
    The Chairman. Let me ask, Mark, did you have a comment on 
where we're putting our emphasis in the research and 
development of these different applications?
    Dr. Hampden-Smith. Yes, I think so. I don't think I 
actually completely agree with everything Dr. Stroh just said. 
I think actually, it's perhaps the other way around. I think it 
was a very clever thought of the DOE to go after the most 
demanding, the highest-cost target market because that drives 
the rest of the industry. So if you look at some of the cost 
targets, I mean, full adoption of fuel cell cars has the cost 
around $50 a kilowatt, maybe $30 a kilowatt, I think, as we 
heard earlier today. That's extremely demanding.
    A stationary residential fuel cell has a cost target of 
full market adoption of $500 a kilowatt, so as we've seen 
actually in the industry, a lot of the car companies are now 
looking at providing stationary fuel cells because they realize 
they can get revenue on the way to making a car. You could look 
at Toyota, they've got stationary residential fuel cell 
programs.
    And actually, at the other extreme, if we all grab our 
little cell phones, of course, if we pay $100 for our long-life 
lithium ion battery, and it puts out a watt, that's $100,000 a 
kilowatt. That's the math. So, which market supports the 
earliest entry point? Probably this one, because we're already 
paying a $100,000 a kilowatt. So I think, actually, from the 
beginning, to have an aggressive target on the most demanding 
application is absolutely the right thing to do.
    I think, as the technology develops, I think there's a lot 
of leverage in what's being developed in terms of reforming, in 
terms of electrocatalysts; you can pick up the other markets on 
the way there, so perhaps now it is time to look at some of 
those other market opportunities and getting some government 
support for that, but actually, it is happening. I think DOE 
has a solicitation coming out in the residential fuel cell 
area, so I think, through all the good lobbying that's going on 
and good information that's being exchanged between private 
industry, the national labs and politicians, you know, the 
vision is being shared, and I think the direction is being 
taken.
    Of course, we have a particular interest in wanting to see 
something perhaps go more into the direct methanol area or 
methanol fuel, in general, because--or maybe support that fuel 
being separated, but there is a market need, why, we're all 
currently paying well above the prices of fuel cell----
    The Chairman. Dr. Godshall, did you have a point of view?
    Dr. Godshell. Yeah. Thank you.
    I think it is an excellent point to raise and so I'll just 
try--I agree with everything he said, so I'll just try to add 
one other component to it, if that's helpful to the committee, 
and that's to put some numbers on these three markets you've 
identified without getting into engineering.
    The portable market, I think that's obvious to everybody, 
is, obviously, much smaller than the transportation need in 
your car, but what's not as well-appreciated is the residential 
application. That middle market we've talked about is actually 
considerably smaller in the actual size of that one unit, that 
one application, so to put numbers on them, the portable 
application, like Mark just mentioned, is on the order of .1 
kilowatt. A car takes on the order of 100 to 150 kilowatts, and 
what's surprising there now, to most people, is that a home 
only takes 2 to 5.
    So a car takes, in terms of power, takes anywhere from 75 
to 100 times that of the power it takes to run your home. And 
although that surprises people at first, the reason for that is 
really quite obvious, and that is, you're not trying to drive 
your home down the highway at 60 miles an hour, so the only 
point that I'm really trying to be helpful with here, is, first 
of all, is that the residential market, which we are targeting 
because it is closer to approach, it is the nearer time, as you 
suggested, Senator, is also an easier and more near-term market 
physically, just because its application is the size of the 
unit that we may make or the size the fuel cell is can be up to 
100 times smaller than the equivalent of that amount of power 
that you need to run your car down the road.
    The Chairman. Well, as I say, I guess my concern is that as 
we are focused on the hardest problem, and that may be a good 
strategy from the point of view of pushing the envelope, as far 
as development of technology, it may not be the right strategy 
as far as getting fuel cell technology utilized, and I'm 
wondering if we're going to end up essentially ceding to 
foreign competitors the nearer-term market in fuel cell-
related, technology-related applications while we are focused 
on helping develop the FreedomCAR somewhere down the road. Is 
that----
    Dr. Godshell. That absolutely is our belief. Now, again, I 
remind everybody again that there is--it's somewhat self-
serving for us to say that because that is the business model 
we have taken, but we've taken it for the very reason you've 
said, Senator. We believe it's a very near-term and much more 
plausible avenue to tackle the more doable things first. Some 
of our competitors have indeed taken the opposite approach, and 
that is go directly to the automotive market, which, as Dr. 
Stroh said, is admitted by all that are knowledgeable in the 
field is a much more difficult, much more long-term task, so 
you're absolutely right.
    It's our belief that what we should have been picking is 
the more portable and residential applications, not only 
because they're near-term and partly what you suggested, that 
we don't miss the boat, and so, absolutely, we concur that as 
long as it's well-balanced, all three of these markets, in 
terms of fuel cells, obviously, need some attention by the 
research and Government funding sources, but yes, we do believe 
that perhaps the smaller--physically smaller applications have 
not gotten as much attention.
    The Chairman. Mark, let me ask you, you are focused on 
using methanol as the fuel to operate these fuel cells. What is 
the reason that is chosen over other sources? I gather that 
there's some advantage to that. Maybe it's just the thing that 
you are sure----
    Dr. Hampden-Smith. In general, without being here for 3 
hours, the use of fuel cells and the fuels that fuel them is 
going to be extremely application-specific. I mean, let's look 
at those three areas, I mean, briefly, and let you get kind of 
a better feel for why people are choosing different 
technologies.
    Actually, we make materials for fuel cells powered by 
natural gas, hydrogen and methanol. It just happens that 
methanol is particularly suitable for this particular market 
for portable power. But if you go back and look at the 
transportation area, you've only got two choices; you can say 
I'm going to use this infrastructure that fuels all our cars 
today, and ``I'm going to put some device on the car that 
converts the gasoline that I would put into it,'' or some other 
fuel, ``into hydrogen that runs the fuel cell,'' and I think 
DOE, in consultation with all the car companies, are saying, 
``Well, gee, that's unlikely to be realistic because of the 
issues of a fuel processor to run such a big fuel cell small 
enough I'm not going to be able to fit it in the car.'' So 
they've immediately taken the burden out of, perhaps, 
developing the fuel cell for the car to making that problem 
more the hydrogen infrastructure for the automotive 
application. So that's one issue, as I see it. Chances are, 
fuel cell vehicles are going to be fueled by hydrogen, and it's 
going to be reformed off-site, somewhere else.
    Now, in the stationary application for homes, and that 
would be--stationary fuel cells could be 250 kilowatts, the 
nice thing about stationary fuel cells is, if you run them off 
natural gas, the fueling infrastructure already exists, for the 
most part, or you could run them off liquid propane, for 
example, or some other fuel that is commonly distributed, so 
stationary fuel cells are probably closer to the market because 
there's no logistic fueling infrastructure issue in the sense 
of where I do get the fuel from. Most of our homes will be 
plumbed with natural gas.
    If you want to make a very small fuel cell, you're really 
faced with two choices: You've either got to use some kind of 
fuel, then reform it, which means two-way radios are a little 
bit larger. There's a better value proposition in the emergency 
services and military for having that instantly, we can all 
probably carry around--afford to carry around a couple 
batteries, but what I'm faced with is either having a fuel 
processor--the fuel processor on board on this thing, which is 
generally unviable, or I've got to put hydrogen on here, but 
there's no real good way to store hydrogen. It's very energy-
inefficient and cost-inefficient.
    So methanol has a higher energy content than hydrogen, 
because it's a liquid, primarily; it has a lot of energy 
content in it compared to gas, H2, so it can be stored very 
efficiently, at a very high volume, and actually, a direct 
methanol fuel cell does two things at once: the fuel cell 
itself is its own reform, its own fuel processor, so the same 
materials in that fuel cell convert the methanol to hydrogen 
and then the hydrogen, the protons do the rest of the chemical 
reaction, so actually, a direct methanol fuel cell has in the 
fuel cell an on-board reformer.
    That's why you want to use a fuel like methanol; it can be 
converted to hydrogen at relatively low temperatures by the 
same catalyst that would split the hydrogen into protons to 
react with oxygen and make electricity. So methanol's a good 
fuel of choice. Actually, ethanol would be better, but it's 
tougher, technically. Ethanol would be better from an energy 
and density point of view, but methanol now is the fuel of 
choice for small fuel cells because you can use the same 
catalyst to both reform the methanol and convert it.
    The Chairman. Okay. That's very useful. That's a very good 
description.
    Let me just ask one other question about this technology 
demonstration program for small portable methanol fuel cell 
battery chargers.
    Dr. Hampden-Smith. That's a mouthful.
    The Chairman. Is that all accurate that----
    Dr. Hampden-Smith. Yes.
    The Chairman [continuing]. That's what your view, Mark, is, 
that we should give that a priority both because it's not 
getting a priority, but also because this is a very readily 
achievable application that has commercial potential; is that 
accurate?
    Dr. Hampden-Smith. Yes, it is. Here's our thought. We can't 
take credit for it, a lot of other people have had the same 
thought, and I think people who are making other small fuel 
cells for small electronic devices are definitely going down 
the path of don't-replace-the-battery integration issues 
associated with getting the fuel cell to integrate directly 
with an electronic device, but rather keep recharging the 
battery; recharge the battery.
    It was Motorola, I think, that thought it up. But a lot of 
people are thinking about that for that reason. I think one 
reason that we see this as a very good market opportunity is it 
will be good for fuel cells, in general. I think fuel cells 
need to be brought to the attention of the general public. 
There's a lot of information floating around about them, but 
it's all mainly transportation-focused, and as everybody says, 
that it's kind of miles off in the future, you know, is it 
going to happen, is it going to happen.
    On the other hand, I don't think you should go out and 
expect, in a year, to see all our cell phones being fueled by 
fuel cells because it doesn't make any business sense to go 
after the market that's most demanding as your first target 
market. So we have teamed with Motorola for that specific 
reason, we make the materials, they have the market entry 
point, and they have a systems integration capability in a 
market where there's a very strong need for the type of 
capabilities a fuel cell recharger would supply.
    So, for example, if you could--the two-way radio the Forest 
Service uses, or emergency services use are relatively large, 
one would envision having built a holster that is a direct 
methanol or even reformed methanol fuel cell that would 
trickle-charge the battery. The reason there's a very good 
business proposition for this, the math works out that if you 
wanted to power these two-way radios for the week, which is 
typically the time a forest firefighter fights a fire, they 
need about 80 watt hours, that's about seven NiCd batteries. So 
they're carrying seven NiCd batteries. It's equivalent--even 
including 21 percent efficiency on converting the methanol to 
electricity, that's about 70 millileters of methanol. It's 
about this much. So what would you rather do, have your two-way 
radio battery being constantly recharged by your holster, and 
carry small amounts of methanol, or carry seven relatively 
bulky batteries.
    These folks are paying a lot of money for a battery, so 
there's a good economic value, too, and actually, you know, 
methanol, under certain circumstances, is a flammable 
substance. Who better to manage that in an early demonstration 
program than firefighters. So, for a lot of reasons, it really, 
to us, makes a lot of sense, and I think, actually, more than 
that, I think getting this technology out in the marketplace 
and getting people familiar with it and talking about it, and 
if it goes into emergency services, it can probably go into the 
hospital--I mean it'll start to infiltrate lots of other 
markets and that's typically how these markets learn about, you 
know, advanced technology. So that's our view on the situation.
    The Chairman. Either of the rest of you want to make a 
comment on the appropriateness of giving priority to this 
development of a battery charger?
    Dr. Stroh, did you have a follow-up?
    Dr. Stroh. I think that that's a good first market to look 
at. I think there are opportunities in other markets, as well, 
to do early demonstrations, to get these things out, in use, 
get the public used to them, do some education around them, do 
some Government first-buys that generates a revenue stream that 
keeps some of these companies going.
    One point that does back up your concern about the way 
we're headed in this country is the fact that in just the last 
3 or 4 months, a couple of rather innovative companies have 
closed doors because if you're looking at revenues being 5 to 7 
years out, small companies can't stay alive that long, so we 
need to find ways to get some early markets going, get revenue 
coming into these companies, and at the same time as the 
products get out there, people get familiar with them, kids 
learn about them in school, they start to generate some market 
pull where the benefits are realized, and you can bootstrap the 
market up from there.
    The Chairman. All right. Well, this has been very useful. 
Thank you all very much for the testimony, and we will try to 
take this record and educate some of our colleagues about the 
value of both solid-state lighting and fuel cell technology and 
hydrogen generation technology and hope that we can do some 
good with the information in the next Congress.
    Thank you all very much. That will conclude our hearing.
    [Whereupon, at 11:40 a.m., the hearing was adjourned]

    [Subsequent to the hearing, the following statement was 
received for the record:]

  Statement of National Electrical Manufacturers Association Lighting 
                 Division Solid State Lighting Section

                              INTRODUCTION

    The National Electrical Manufacturers Association (NEMA) Solid 
State Lighting Section appreciates the opportunity to present testimony 
before the Senate Committee on Energy and Natural Resources regarding 
solid-state energy efficient lighting technology.
    The testimony will focus on the following areas: introduction of 
the NEMA Solid State Lighting Section to the Committee; the need for 
solid-state lighting technology in commercial and consumer 
applications; the operational characteristics of solid-state lighting 
technology; and finally, encouraging investment and development of sold 
state lighting technology.

           THE NATIONAL ELECTRICAL MANUFACTURERS ASSOCIATION 
                      SOLID STATE LIGHTING SECTION

    The NEMA Solid State Lighting Section is comprised of 13 member 
companies representing various market segments that manufacture 
semiconductor light sources, products, and systems for specialty and 
general lighting applications. The Solid State Lighting Section is one 
of several sections within the NEMA Lighting Systems Division. NEMA is 
proud to represent such a dynamic and growing lighting technology 
field.
    The National Electrical Manufacturers Association is the largest 
trade association representing the interests of U.S. electrical 
industry manufacturers. Our more than 400 member companies manufacture 
products used in the generation, transmission, distribution, control 
and use of electricity. NEMA works to advance the interests of member 
companies in the areas of government affairs, standards and economics. 
Annual shipments of member goods exceed $100 billion in value, and 
these firms employ over 400,000 workers in the United States.
    The NEMA Solid State Lighting Section is tasked with integrating 
the dynamics of solidstate light sources into existing lighting 
practices, and to create new practices to fully utilize the potential 
of solid-state lighting technology. In this regard, the section 
includes all related downstream users including application, controls, 
and power necessary for the effective utilization of solid-state light 
sources. This also includes building and maintaining a center of 
expertise, creating a definition of terms, and coordinating activities 
with other sections within the NEMA Lighting Systems Division. It also 
includes working with other NEMA sections outside of the Lighting 
Division, and recognized policy and standards setting organizations.
    While the NEMA Solid State Lighting Section recognizes many topics 
of concern to section manufacturers, a primary interest is the 
integration of solid-state lighting technology into existing lighting 
practices and systems. While research and development on solid-state 
lighting technology are worthy goals, the NEMA Solid State Lighting 
Section also believes in end-use applications as an important goal.

              THE NEED FOR SOLID STATE LIGHTING TECHNOLOGY

    Solid-state lighting technology is a significant part of the future 
of energy-efficient lighting. The U.S. public and private sectors have 
undertaken strategies to reduce our energy consumption through the 
development, promotion, and application of energy-efficient lighting 
products and systems. While significant achievements have been 
realized, further important energy savings are possible with technical 
breakthroughs that would result in the application of solid-state 
lighting systems in general lighting markets. It is estimated that 
adoption of solid-state technology could reduce global electricity 
usage for lighting by 50 percent, and reduce global electricity 
consumption by 10 percent over the next twenty years.
    Expanding on this analysis, it has been estimated that lighting 
represents about twenty to thirty percent of electrical use in the 
United States. Furthermore, the best illumination systems on the market 
today convert about twenty-five percent of electricity into light. A 
report in Scientific American from February 2001 estimates that if 
white light emitting diodes (LEDs) could be made to match the 
efficiency of red light emitting diodes, they could reduce energy needs 
and cut the amount of carbon dioxide pumped into the air by electrical 
generating plants by 300 megatons a year.
    Solid-state lighting holds tremendous potential for the 
environment. It has been estimated that the United States could avoid 
200 metric tons of carbon emissions by 2020 if solid-state lighting 
garners a significant share of the general lighting market. There are 
also economic benefits in terms of employment, growth, and in supplier 
and equipment industries.
    The numbers and analysis all lead in the same direction and 
eventual conclusion: solid-state lighting technology is a significant 
part of the future of energy efficient lighting. Indeed, the future 
holds the potential benefit of long-lasting, durable light emitting 
diodes that burn less energy and emit virtually no heat as compared to 
their lighting counterparts. Solid-state lighting technology is the 
next generation of lighting technology and deserves the attention of 
American policymakers and energy consumers.

            THE OPERATION OF SOLID STATE LIGHTING TECHNOLOGY

    Light emitting diodes are only a few tenths of a millimeter in 
size. They are essentially semiconductor materials that convert 
electrical energy into light. They consist of semiconductor crystals 
grown layer by layer, with the crystal layer emitting a characteristic 
colored light when electricity is passed through it.
    According to material in the February 2001 edition of the 
Scientific American, the modern goal for light emitting diodes is 
making pure white light. This helpful article provides an easier grasp 
of solid-state lighting technology, and identifies two main ways of 
generating white light. The first is ``color theory'' where the light 
output from LEDs of red, green, and blue wavelengths are combined to 
make white light. However, research has shown that it is difficult to 
truly mix the colors of the LED to achieve uniformity and control. The 
second way relies on an LED photon to excite a phosphor. For example, 
one can package a yellow phosphor around a blue LED. When the energy of 
the LED strikes the phosphor, it becomes excited and gives off yellow 
light. This mixes with the blue light form the LED to give white light. 
Alternatively, an ultraviolet light LED can be used to excite a mixture 
of red, green and blue phosphors to give white light. This process, 
similar to that in fluorescent tubes, is simpler than mixing three 
colors, but is less efficient due to absorption and scattering factors.

     THE PRESENCE AND BENEFITS OF SOLID STATE LIGHTING TECHNOLOGY 
                       IN EVERY DAY APPLICATIONS

    Light emitting diodes convert electricity to colored light more 
efficiently than a common incandescent bulb available on today's 
market. They are rugged and compact with some types of LEDs lasting up 
to 100,000 hours. This translates into approximately a decade of 
regular use. In contrast, the average incandescent bulb lasts about 
1,000 hours.
    Light emitting diode technology is everywhere: from cell phone 
faces and automobile dashboards to bigger applications in buildings and 
memorials. To better understand the reallife applications of sold-state 
LED technology, it is helpful to look at a bustling commercial 
enterprise like the NASDAQ in New York City, and the refurbishment of 
the venerable Jefferson Memorial in Washington, DC. In both situations, 
planners used solid-state lighting technology with striking results. At 
the NASDAQ headquarters on the NASDAQ Marketsite Tower, the worlds 
largest video screen uses 18,677,760 LEDs covering 10,736 square feet. 
At the Jefferson Memorial, Osram Sylvania used more that 17,000 LEDs to 
illuminate a quote from Thomas Jefferson that was hard to see under the 
old lighting conditions. Jefferson's famed quote--now brightly lit--
encircles the inside of the vaulted rotunda at the base of the dome: 
``I have sworn upon the altar of God eternal hostility against every 
form of tyranny over the mind of man.''
    Light emitting diode technology can also be found in exit signs, 
traffic signals, edge and backlit lighting for signage, accent lighting 
for buildings and marker lighting (e.g. airplanes or theaters), or 
landscape lighting when low-level lighting is used to show the way in 
darkened areas. In Europe, LEDs are being used in the majority of cars 
produced there for high mount brake lights. The United States is moving 
in that direction as well; light emitting diodes are being used in 
taillights, turn signals and side markers for trucks and buses. LEDs 
also have intriguing applications in medical science and museum curator 
applications.
    LED's low heat, flexible strips and even wavelength promises 
reliability and wide applications.

         ENCOURAGING INVESTMENT AND DEVELOPMENT OF SOLID STATE 
                          LIGHTING TECHNOLOGY

    The NEMA Solid State Lighting Section strongly supported the Next 
Generation Lighting Initiative (NGLI) as described in S. 517/H.R. 4. 
While good progress was made on the legislative language, it fell prey 
to a crowded end-of-session calendar.
    The NEMA Solid State Lighting Section believes the language passed 
by the Senate as part of the comprehensive energy bill (S. 517) in the 
107th Congress will provide the necessary resources to overcome the 
pre-competitive research and development hurdles associated with white 
light illumination using solid-state light emitting diodes. Modeled 
after successful past initiatives, it will enable manufacturers to 
address those problems associated with such technological development, 
with the ultimate goal of end-use application of solid-state lighting 
technologies.
    With regard to federal appropriations dollars, within their limited 
resources, the Department of Energy has shown support for solid-state 
lighting research and development. The NEMA Solid State Lighting 
Section wrote to key appropriators and urged the full funding for the 
NGLI in fiscal year 2003 as described in the authorizing language. The 
Section supports full funding for the Next Generation Lighting 
Initiative, and appreciates the commitment by members of Congress to 
achieve that end.
    The NEMA Solid State Lighting Section stands ready to work with 
interested legislators, policymakers and other stakeholders to pass and 
enact language for a Next Generation Lighting Initiative.

                               CONCLUSION

    The NEMA Solid State Lighting Section appreciates the opportunity 
to address the Senate Committee on Energy and Natural Resources 
concerning solid-state energy efficient lighting. The section hopes 
that the foregoing introduction and discussion of solid-state lighting 
technology, and the subsequent discussion of the need for investment in 
the end-use application of the technology, will reinforce the benefits 
of energy efficient lighting technology to the Committee.


</pre></body></html>
